   Office   of the   Inspector General




Semiannual Report           to   Congress
     April 1, 2009 -- September 30, 2009
       Social Security Administration
       Office of the Inspector General


               Mission Statement

 By   conducting independent and objective
  audits, evaluations and investigations,
      we inspire public confidence in the
integrity and security of        SSA’s    programs
 and operations and protect them against
fraud, waste, and abuse.        We   provide timely,
useful, and reliable information and advice
  to   Administration     officials,    Congress,
                and the public.




               Vision    and   Values

   We   strive for continual improvement
       in   SSA’s   programs, operations,
  and management by proactively seeking
new ways to prevent and deter fraud, waste,
      and abuse.    We   commit to integrity
        and excellence by supporting
        an environment that provides
a valuable public service while encouraging
   employee development and retention
  and fostering diversity and innovation.
                                                                                 Semiannual Report to Congress




               A Message from the Inspector General
         The Social Security Administration Office of the
         Inspector General has as its core mission protecting and
         improving the Agency and its programs. That critical focus
         is necessary now more than ever, as the recovering United
         States economy has resulted in millions of Americans
         turning to our Social Security system as a reliable financial
         safety net.
         In this Semiannual Report to Congress, covering the period
         April 1 through September 30, 2009, I am pleased to
         present to the 111th Congress our most significant audit,
         investigative, and legal accomplishments. Even during
         times of economic challenge and increasing workloads,
         we have maintained a focus on persistent management
         challenges like the disability backlog, as well as on high-priority investigations, such as those
         targeting disability applicants who exaggerate or lie about their physical and mental ailments
         and fraudulently receive benefits.
         As aging Baby Boomers and others choose retirement, the number of retired workers who
         began collecting Social Security benefits jumped by a record 19 percent in fiscal year 2009,
         and disability claims rose 17 percent this year. Also during this reporting period, the Federal
         government issued the first economic recovery payments to people receiving Social Security
         benefits and Supplemental Security Income, as part of the American Recovery and Reinvestment
         Act of 2009. Congress also provided this office with funds for oversight and audit of programs,
         projects, and activities funded in this Act. Our audit work will assess whether funds were used
         for authorized purposes and will identify instances of fraud, waste, error, and abuse. Our audit
         work began in March 2009.
         As the Social Security Administration provides program benefits to more and more Americans,
         this office’s nearly 600 employees remain dedicated to inspiring confidence in the integrity and
         security of those programs, and work to protect them against fraud, waste, and abuse. These are
         challenging days, but I assure you that my office will continue to work with the Social Security
         Administration and the Congress to strengthen the programs that provide timely and accurate
         benefits to Americans who rely on them.



         S
         Patrick P. O’Carroll, Jr.
         Inspector General




April 1 – September 30, 2009                                                                                 1
Semiannual Report to Congress




4                               April 1 – September 30, 2009
                                                                                                    Semiannual Report to Congress




                           Social Security Administration
                           Office of the Inspector General


                                                   n
                 Contents
                    A Message from the Inspector General......................... 1

                    Executive Summary................................................................5

                    Introduction to Our Organization................................7

                    Impact..........................................................................................9

                    Value.........................................................................................22

                    People........................................................................................36

                    Reporting Requirements and Appendices.....................39

                    Glossary of Acronyms.........................................................63




April 1 – September 30, 2009                                                                                                   3
Semiannual Report to Congress




6                               April 1 – September 30, 2009
                                                                                 Semiannual Report to Congress




 Executive Summary                                         Value
 This report presents the significant accomplishments of  Our organization strives to provide valuable products
 the Social Security Administration (SSA) Office of the   and services in a timely manner to Congress, SSA, and
 Inspector General (OIG) from April 1, 2009 through       other key decision makers while sustaining a positive
 September 30, 2009. The report is organized according    return for each tax dollar invested in OIG activities.
                                                          During this reporting period, our auditors identified
 to three major goals—impact, value, and people—set
                                                          more than $2.9 billion in questioned costs and more
 forth in the OIG Strategic Plan: Fiscal Years 2006 –
                                                          than $4 billion in Federal funds that could be put to
 2010, Fourth Edition.
                                                          better use. Highlighted audits include a review of the
                                                          financial impact of conducting fewer Supplemental
                                                          Security Income (SSI) redeterminations, and SSA’s
 Impact                                                   progress in resolving unprocessed annual earnings
 We work to have a positive impact on SSA programs and enforcement selections.
 operations by enhancing their integrity, efficiency, and In the second half of FY 2009, we are reporting over
 effectiveness. During this reporting period, we received $171 million in investigative accomplishments, with
 more than 79,000 allegations from SSA employees, the over $26 million in SSA recoveries, restitution, fines,
 Congress, the public, law enforcement agencies, and settlements, and judgments; and over $144 million in
 other sources. Our agents closed more than 3,700 projected savings from investigations resulting in the
 criminal investigations, resulting in over 500 arrests, suspension or termination of benefits. In addition, we
 about 500 indictments and informations, and 900 participated in multi-agency investigations that resulted
 criminal prosecutions (which includes convictions and in over $17 million in savings, restitution, and recoveries
 pretrial diversions) and civil monetary penalty (CMP) for other agencies. Highlighted investigations in
 assessments. During this reporting period, our agents this section relate to representative payee fraud and
 also secured six indictments and three convictions for concealment of work activity in order to collect
 fraudulent activity related to Hurricanes Katrina and disability benefits.
 Rita, and continued to work with law enforcement
                                                          Our Cooperative Disability Investigations (CDI)
 agencies to arrest subjects identified through the
                                                          Program continues to be one of our most successful
 Fugitive Felon Program. Highlighted investigations
                                                          initiatives, contributing to the integrity of SSA’s
 in this section relate to Social Security number (SSN)
                                                          disability programs. The efforts of our CDI Units
 misuse, employee misconduct, and hurricane response during this reporting period resulted in more than $121
 efforts.                                                 million in SSA program savings.
 Our auditors also had a significant impact during         During this reporting period, our attorneys initiated
 this reporting period, issuing 66 reports and making      49 CMP actions (Section 1129 cases) that involved
 recommendations on a wide variety of challenges           false statements, representations, or omissions made
 facing the Agency. Our audit work over the past 6         in connection with obtaining or retaining benefits
 months included reviews related to SSA’s Recovery         or payments under Titles II (Federal Old-Age,
 Act initiatives, representative payee oversight, and      Survivors, and Disability Insurance Benefits) and
 SSA’s pilot project to assemble disability case folders   XVI (Supplemental Security Income) of the Social
 electronically in preparation for hearings.               Security Act (the Act). Included in our investigative
                                                           accomplishments above is nearly $2.3 million in
                                                           penalties and assessments that our attorneys imposed
                                                           through our CMP program.

April 1 – September 30, 2009                                                                                         5
Semiannual Report to Congress




    People                                                  levels and addresses employee concerns. The Agency
                                                            and the Office of Personnel Management use a baseline
    The collective efforts of our employees continue to be
                                                            of 65 percent of employees responding positively (e.g.,
    the driving force behind this organization’s success
                                                            strongly agree or agree) to measure the statistical
    in achieving its mission. We provide an encouraging
    and rewarding work experience with the goal of strength of an organization. Using that definition of
    retaining these exceptional individuals. OIG leadership statistical strength, 12 of the 13 questions on the OIG
    fosters an environment where employees can realize survey had scores above 65 percent, demonstrating that
    their potential through training and developmental the health of the OIG organization is strong. Question
    programs. OIG components convene training sessions 12 of this survey asks “Considering everything, how
    to inform their employees about new procedures and satisfied are you with your job?” Eighty-two percent of
    share best practices.                                   our employees indicated that they are either satisfied or
    In addition, the OIG Organizational Health very satisfied with their job, which is significantly higher
    Committee annually assesses employee satisfaction than the 70 percent rate reported for SSA employees.




6                                                                                      April 1 – September 30, 2009
                                                                                  Semiannual Report to Congress




 Introduction                                              audits review the economy, efficiency, and effectiveness
                                                           of SSA’s programs and operations. OA also conducts
 to Our Organization                                       short-term management and program evaluations, and
                                                           other projects on issues of concern to SSA, Congress,
 The SSA OIG comprises the Immediate Office of             and the general public.
 the Inspector General and five major components:
 the Offices of Audit, Counsel, External Relations,
 Investigations, and Technology and Resource Office of the Counsel
 Management.                                        to the Inspector General

                                                           The Office of the Counsel to the Inspector General
 Immediate Office                                          (OCIG) provides independent legal advice and
 of the Inspector General                                  counsel to the Inspector General on a wide range
                                                           of issues, including statutes, regulations, legislation,
 The Immediate Office of the Inspector General (IO) and policy directives. OCIG also administers the
 provides the Inspector General with staff assistance on CMP program, and advises the Inspector General on
 the full range of his responsibilities. IO staff provides investigative procedures and techniques, as well as on
 liaison with all agencies sharing common interests with the legal implications of audit and investigative affairs.
 OIG and ensures coordination with congressional
 committees, SSA, the Social Security Advisory Board,
 and the Council of Inspectors General on Integrity and Office of External R elations
 Efficiency. IO includes the Office of Quality Assurance
 and Professional Responsibility (OQAPR), which The Office of External Relations (OER) develops the
 performs two critical functions. First, it conducts OIG’s media and public information policies, directs
 exhaustive reviews of each of the OIG’s component OIG’s external and public affairs programs, and
 offices to ensure compliance with Federal laws and handles congressional, media, and public requests for
 regulations, Agency policies, and relevant professional information. OER is responsible for preparing OIG
 standards. Second, OQAPR conducts thorough and publications and presentations to internal and external
 timely investigations into allegations of misconduct by organizations, and coordinating the OIG’s presence
 an OIG employee.                                          at SSA and other Federal events. In addition, OER
                                                           prepares the OIG Semiannual Report to Congress
                                                           and congressional testimony, and coordinates with
 Office of Audit                                           SSA’s Offices of Communications and Legislative and
                                                           Regulatory Affairs.
 The Office of Audit (OA) conducts and supervises
 financial and performance audits of SSA programs and
 operations, and makes recommendations to ensure that
 program goals are achieved effectively and efficiently.
 Financial audits determine whether SSA’s financial
 statements fairly present SSA’s financial position,
 results of operations, and cash flow. Performance




April 1 – September 30, 2009                                                                                          7
Semiannual Report to Congress




      Office of Investigations

      The Office of Investigations (OI) conducts
      and coordinates investigative activity related
      to fraud, waste, abuse, and mismanagement in
      SSA programs and operations. This includes
      wrongdoing by applicants, beneficiaries,
      contractors, and third parties, as well as by SSA
      employees while performing their official duties.
      This office serves as the OIG’s liaison to the DOJ
      on all matters relating to the investigation of SSA
      programs and personnel. OI also conducts joint
      investigations with other Federal, State, and local
      law enforcement agencies.



      Office of Technology
      and R esource Management

      The Office of Technology and Resource
      Management (OTRM) provides administrative
      support to the Inspector General and OIG
      components. OTRM formulates and executes
      the OIG budget, and is responsible for strategic
      planning, performance reporting, and facility
      and property management. OTRM manages a
      national human resources program and develops
      and maintains the OIG’s administrative policies
      and procedures. OTRM also maintains hardware,
      software, and telecommunications networks to
      support the OIG’s mission. Finally, OTRM
      manages the OIG’s Allegation Management and
      Fugitive Enforcement Division and Electronic
      Crimes Division.




8                                                           April 1 – September 30, 2009
                                                                                  Semiannual Report to Congress




 Impact                                                    • $500 million designated for the replacement of SSA’s
                                                           National Computer Center (NCC);
                                                            • $500 million designated for processing disability and
 The first goal of the OIG Strategic Plan is Impact. retirement workloads, and information technology
 We are committed to enhancing SSA’s effectiveness acquisitions and research in support of these workloads;
 and efficiency through our investigative, audit, and legal and,
 activities. We strive to have maximum impact on SSA’s
                                                            • $90 million to reimburse costs for processing a one-
 programs and operations to ensure their continued
                                                            time economic recovery payment (ERP) of $250 to
 integrity and reliability.
                                                            millions of qualified individuals receiving Social
 During this reporting period, we completed numerous Security benefits and/or SSI.
 audits, investigations, and legal initiatives covering
                                                            Congress provided our office $2 million to conduct
 major SSA program and management areas, which had
                                                            oversight of SSA programs, projects, and activities
 a significant impact on the detection and prevention
                                                            funded by the Recovery Act. During this reporting
 of fraud, waste, and abuse. The summaries presented
                                                            period, we issued five reports related to the Recovery
 below are indicative of our work over the past 6 months.
                                                            Act.


 Audit Impact Initiatives                                  1) Economic Recovery Payments for Social Security
                                                           and Supplemental Security Income Beneficiaries
 OA contributes to this strategic goal by conducting and
 supervising comprehensive financial and performance       Our review found that overall, SSA met its challenge of
 audits and by making recommendations to maximize          administering the ERPs mandated under the Recovery
 the effective operations of Social Security programs.     Act. In May 2009, SSA certified about $13 billion in
 These audits, along with short-term management and        one-time payments to 52 million beneficiaries. At the
 program evaluations, focus on those SSA programs and      time of our review, we found SSA had taken significant
 activities most vulnerable to fraud and abuse.            actions to properly identify eligible beneficiaries and
                                                           develop the necessary systems and policy changes to
                                                           ensure payments were disbursed in accordance with the
 American Recovery and Reinvestment Act of 2009            provisions of the Recovery Act. In addition, we found
                                                           that SSA’s planned controls and procedures should
 On February 17, 2009, the President signed into law the   reduce the significant risk of improper payments, fraud,
 American Recovery and Reinvestment Act of 2009, P.L.      waste, or abuse. On May 7, 2009, Treasury began
 111-5 (Recovery Act). The Administration is committed     disbursing the economic recovery payments to eligible
 to investing Recovery Act funds with an unprecedented     beneficiaries—about 5 weeks before the statutory
 level of transparency and accountability so Americans     deadline.
 know where their tax dollars are going and how they
 are being spent. SSA was provided funds under the
 Recovery Act in the following areas.




April 1 – September 30, 2009                                                                                          9
Semiannual Report to Congress




 2) Administrative Expenses Incurred to Provide whether additional funds should be used for HIT-
 Economic Recovery Payments                     related initiatives.
 In this review, we reported that SSA implemented          4) The Social Security Administration’s Information
 a comprehensive process to identify and report            Technology Strategic Planning
 costs incurred to administer the ERPs. We believe
                                                           SSA was provided $500 million designated for the
 SSA sufficiently addressed OMB’s requirements for
                                                           replacement of its NCC. In a February 18, 2009
 transparency and accountability in the use of the
                                                           letter co-signed by Senators Baucus and Grassley, our
 Recovery Act administrative funds. SSA was able to
                                                           assistance was requested to evaluate SSA’s response to
 identify and track these expenditures separately from
                                                           a Lockheed Martin study of the NCC and the Agency’s
 its regular appropriations, and timely submitted the
                                                           efforts to strategically address future information
 required weekly reports summarizing the administrative
                                                           systems needs.
 costs incurred.
                                                           In our review, we reported SSA needed to focus its
                                                           efforts on (1) strengthening its IT strategic planning
 3) Funding for Health Information Technology process and related documents; (2) identify ways to
 under the American Recovery and Reinvestment Act accelerate planning, constructing, and operating its new
 of 2009                                                   data center; (3) develop contingency plans for addressing
                                                           its IT processing requirements and disaster recovery
 Of the $500 million SSA received for processing procedures in the event the Durham Service Center
 disability and retirement workloads, the Agency can (DSC) and/or new data center are not operational
 use up to $40 million for health information technology in the scheduled timeframes; (4) use industry best
 (HIT) research and activities to facilitate the adoption practices to aid in its IT strategic planning; and (5)
 of electronic medical records in disability claims. In establish controls and a detailed strategy for timely
 our review, we reported that as of July 2009, SSA had maintenance, repairs, upgrades, and replacement of
 developed a plan for spending the Recovery Act funds critical IT infrastructure in the new data center.
 designated for HIT, and had established procedures to
 ensure the funds were spent appropriately. SSA plans 5) The Social Security Administration’s Disaster
 to award $24 million in fixed-price contracts by the Recovery Process (Limited Distribution)
 end of January 2010. The Agency intends to award
 these contracts through fair and open competition to This review evaluated SSA’s current disaster recovery
 healthcare providers, networks, health information process in the event the NCC is unavailable. We
 exchanges, and regional health information networks. determined that SSA’s current disaster recovery plan
 Part of these funds will also be used for Information is heavily dependent on the availability of a facility
 Technology (IT) contractor services to support the the Agency refers to as a hot site. Although SSA has
 expansion of the MEGAHIT application - the “point- an NCC disaster recovery plan in place, we believe
 to-point” process to request and receive medical evidence SSA must consider the potential impact of the issues
 through a standards-based electronic exchange of data identified in the report, and devise a plan to ensure
 - to these healthcare providers. Once these contracts that SSA is best positioned to avoid an extended
 are awarded, the Agency should continually reassess disruption of service affecting the Agency’s ability to
 whether the Agency could manage more contracts or provide service to the public. The current state of the
                                                           NCC places greater importance on a disaster recovery




10                                                                                   April 1 – September 30, 2009
                                                                                     Semiannual Report to Congress




 plan. SSA’s DSC has been designed with the capacity         The results of the ePulling pilot project indicated that
 to expand both the number of mainframes and the             ODAR was facing challenges with the accuracy of
 power supply to support that expansion. We believe          the ePulling software, which was increasing ePulling’s
 the Agency should expedite the use of the DSC for           case preparation times. In addition, ODAR had not
 NCC disaster recovery purposes. The Agency expects          established a sufficient assessment methodology for
 the DSC to be fully functional in 2013.                     measuring ePulling’s impact on the hearings process.
                                                             An assessment methodology is critical to future
                                                             decisions on expanding the use of ePulling to other
 Electronic File Assembly                                    hearing offices.

 SSA’s Deputy Commissioner for the Office of                 We recommended that SSA: (1) perform a complete
 Disability Adjudication and Review (ODAR) oversees          assessment of the ePulling pilot project results before
 SSA’s national hearings and appeals operation of over       expanding the use of ePulling to other hearing offices;
 6,000 employees, including over 1,100 administrative        (2) consider if historical data can corroborate or improve
 law judges (ALJ). ODAR conducts due process                 upon the current 3 hour case preparation time estimate
 hearings and appellate reviews, and issues decisions        used to assess ePulling’s impact on hearing office
 on appealed Retirement, Survivors, Disability, and SSI      productivity; and (3) determine whether the ePulling
 determinations. ODAR issues over 500,000 hearing            pilot testing should also include cases with more than
 decisions each year and is considered one of the largest    300 pages. SSA agreed with our recommendations, and
 administrative judicial systems in the world.               in July 2009 SSA decided to end the ePulling initiative.

 The number of disability cases awaiting a decision from
 an ALJ has risen from over 463,000 at the end of fiscal     Aged Claims at the Hearing Level
 year (FY) 2002 to over 767,000 at the end of January
 2009. To address this backlog, ODAR is implementing         Since FY 2000, hearing receipts have generally exceeded
 several initiatives intended to improve hearing office      dispositions, resulting in increasing numbers of pending
 efficiency through the use of automation and improved       hearings and aging claims. There were 310,852 pending
 business processes. Electronic file assembly (ePulling)     claims at the end of FY 2000; this number increased to
 was one of ODAR’s initiatives intended to improve the       760,813 claims by the end of FY 2008. In FY 2007,
 file preparation process which has traditionally required   the Agency began the Aged Claim initiative to process
 manual organization of documents in the electronic          the oldest claims in the backlog.
 folder. ODAR piloted ePulling at the National Hearing
                                                             At the beginning of FY 2009, approximately 38 percent
 Center in Falls Church, Virginia, and five other hearing
                                                             of the pending claims exceeded 1 year in age, and about
 offices.
                                                             4 percent exceeded 2 years. While the percent and
 We conducted this review to (1) assess the results          number of aged claims over 1 year old had stabilized,
 of SSA’s ePulling pilot project and (2) determine           the number of these claims was three times higher than
 whether the assessment procedures were effective in         it was at the end of FY 2002. ODAR managers said
 deciding when the ODAR hearing offices were ready           that (1) a lack of resources, (2) conflicting priorities in
 to implement ePulling.                                      the past, and (3) misplaced or time-consuming claims
                                                             have added to the backlog of aged claims.
                                                             We conducted this audit to (1) assess the age of the
                                                             pending claims in the hearings backlog; (2) identify



April 1 – September 30, 2009                                                                                           11
Semiannual Report to Congress




 obstacles that prevented claims from being processed         News articles alleged RRB made medical determinations
 timely; and (3) identify best practices to reduce the aged   for occupational disability cases based on questionable
 claim backlog. We found that the Aged Claim initiative       medical evidence submitted by applicants. While SSA
 has successfully targeted aged claims and focused            does not reimburse RRB for occupational disability
 hearing offices’ efforts on this workload. In addition,      benefits, the allegations highlighted potential
 ODAR has implemented related initiatives to assist           vulnerabilities within RRB’s overall disability process.
 regions and hearing offices in processing large aged         Our objective in conducting this review was to
 workloads, such as service area realignments, permanent      determine whether the DI Trust Fund was at risk due
 case transfers, and National Hearing Centers (NHC).          to the allegations of questionable medical evidence at
 As the NHCs expand their workloads, we believe they          RRB.
 should be integrated with the aged case workload.
                                                            In our review, we found contradictory policies
 Finally, the best practices that helped reduce aged claims
                                                            regarding SSA’s performance of quality assurance
 included sustained leadership and focus, clear workload
                                                            reviews of railroad workers’ claims. In addition, we
 milestones, flexibility in moving workloads between
                                                            found data related to the Financial Interchange had
 offices, and use of management information reports.
                                                            not been reviewed by SSA for about 7 years and no
 We recommended SSA: (1) ensure sustained focus on schedule for periodic reviews had been established by
 working the oldest claims first; (2) instruct field office the Agency. Moreover, the disability Memorandum
 managers on the importance of providing claim folders of Understanding (MOU) between SSA and RRB
 to the hearing offices to allow for timely processing; had not been modified since 1987, and portions were
 and (3) as the NHCs expand their workload, ensure not being followed. An MOU covering the Financial
 they are integrated into Agency efforts to minimize the Interchange process would also be useful. We also
 volume of aged claims. The Agency concurred with our found SSA’s Program Operations Manual System
 recommendations.                                           describing the processing of railroad claims was out of
                                                            date. Finally, while RRB has changed the occupational
                                                            disability review process because of the allegations, at
 Quick Response Evaluation: Processing of Railroad the time of our review, RRB had not modified the
 Worker Disability Claims                                   permanent disability review process.

 The Railroad Retirement Board (RRB) provides                 We believe SSA could improve the underlying policies
 railroad workers with two types of disability benefits—      and procedures, as well as increase oversight of the
 occupational (funded by RRB) and permanent (funded           SSA/RRB disability determination and Financial
 by RRB and SSA through the Financial Interchange).           Interchange processes. SSA management noted the
 Occupational disability benefits are paid to workers who     Agency is initiating steps in a number of these areas to
 are unable to perform their regular railroad occupations.    improve the overall process.
 Permanent disability benefits are paid to workers who
 are totally disabled for all types of employment. For
 FY 2007, SSA transferred approximately $418 million
 from the Disability Insurance (DI) Trust Fund to the
 RRB trust fund via the Financial Interchange process.




12                                                                                     April 1 – September 30, 2009
                                                                                   Semiannual Report to Congress




 Congressional Response Report: The Social Security         • Representative payees serving as a job placement
 Administration’s Oversight of Representative Payees        or job referral service, or serving as employers to the
                                                            beneficiaries they represent.
 Senator Grassley requested information regarding
 SSA’s oversight of representative payees, writing in      The Agency reported it has 2,500 payees serving as
 a March 2009 letter, “As evidenced by recent media        employers to 30,000 beneficiaries. We analyzed SSA’s
 reports on SSA beneficiaries with representative payees,  data to identify organizations and individual payees
 individuals with mental impairments can fall prey to      who may serve as job placement/referral services or
 mistreatment from others.” Senator Grassley requested     employers for the beneficiaries in their care. To assess
 and we provided the following information.                whether these payee beneficiary relationships place
                                                           beneficiaries at added risk, 50 of these payees will be
 • Unimplemented recommendations from prior OIG randomly selected for site visits to the beneficiaries’
 representative payee audits and evaluations.              homes and places of work. Results of the review will
 Our prior audits and evaluations of representative payees be disclosed in a separate report once the site visits are
 and representative payee issues have found significant completed.
 problems with payee performance and SSA oversight.
 In prior reports, we made numerous recommendations
 to improve SSA’s Representative Payment Program. Probation or Parole Violators Serving as
 SSA has implemented most of our recommendations; Representative Payees
 however, some remain unimplemented. As of May
 18, 2009, we continued to track 15 unimplemented While the Social Security Protection Act of 2004 (Protection
 representative payee recommendations made to SSA Act) contains a provision that disqualifies probation or
 before March 31, 2009. SSA reported it continued to parole violators from serving as representative payees
                                                           for Title XVI recipients, there is no similar provision
 take action on these recommendations.
                                                           for Title II beneficiaries. Also, the computer matching
 • Unimplemented recommendations made by the agreement that SSA has with law enforcement agencies
 National Academies in its 2007 report on representative only covers the identification of fugitive felons who are
 payees.                                                   representative payees, and does not identify probation
                                                           or parole violators who are representative payees.
 In July 2007, the National Research Council of the
 National Academies issued its report, “Improving the Our objective in conducting this audit was to quantify
 Social Security Representative Payee Program: Serving the benefits received by representative payees who were
 Beneficiaries and Minimizing Misuse.” In addition to probation or parole violators. Based on our findings,
 summarizing its survey results, the report contained SSA was not complying with the Protection Act
 conclusions and 28 recommendations. To respond requirement to prohibit probation or parole violators
 to this question, we requested the Agency provide from serving as representative payees for Title XVI
 status for all the recommendations in the National recipients. We estimated that between April 2005 and
 Academies report. SSA reported the status for 19 of January 2009, about $26.9 million in Social Security
 the 28 recommendations.                                   funds ($18.9 million in Title XVI payments, and $8
                                                           million in Title II benefits) was paid to about 1,800
                                                           probation or parole violators who were serving as




April 1 – September 30, 2009                                                                                        13
Semiannual Report to Congress




 representative payees. These payees received benefits       Investigative Impact Initiatives
 for about 2,439 beneficiaries.
                                                             OI examines and investigates allegations of fraud,
 We recommended that SSA: (1) work with Congress to          waste, abuse, and mismanagement in SSA programs
 update the Social Security Act so there is consistency in   and operations. These allegations may involve benefit
 the law between probation or parole violators serving as    fraud, SSN misuse, violations by SSA employees, or
 representative payees for Title II and XVI beneficiaries;   fraud related to grants and contracts. Our investigations
 and (2) update its computer matching agreement to           often result in criminal or civil prosecutions and
 allow SSA to identify probation or parole violators         the imposition of CMPs against offenders. These
 who are serving as representative payees and to use this    investigative efforts impact SSA program integrity by
 information in determining whether a payee is suitable.     deterring those contemplating fraud against SSA in
 SSA agreed with the recommendations.                        the future. Our work in the areas of program fraud,
                                                             enumeration fraud, SSN misuse, and employee
                                                             misconduct ensures the reliability of SSA programs
                                                             and their future operations.




                                             Investigative Results

                                            10/1/08 - 3/31/09       4/1/09 - 9/30/09           FY 2009

        Allegations Received                      50,474                 79,021                129,495
        Cases Opened                               3,502                  3,580                  7,082
        Cases Closed                               4,301                  3,764                  8,065
        Arrests                                     568                    520                   1,088
        Indictments/Informations                    554                    556                   1,110
        Criminal Prosecutions                       736                    750                   1,486
        Civil/CMPs                                  177                    152                    329




14                                                                                     April 1 – September 30, 2009
                                                                                                          Semiannual Report to Congress




                                                 Cases Opened by Program Category
                                                     04/01/2009 thru 09/30/2009


                                                Employee Related
                                                     1.79%               Other
                                                                         1.03%   Social Security Number
                                                                                         5.22%



           Title XVI-Disability
                 43.60%


                                                                                                                         Title II-Disability
                                                                                                                              35.98%




                                                        Title XVI-Aged
                                                             3.66%
                                                                                             Title II-Retirement
                                                                                                    8.72%




                                                  Cases Closed by Program Category
                                                     04/01/2009 thru 09/30/2009




                                                                   Other
                                                                   2.23%           Social Security Number
                                     Employee Related                                      7.23%
                                          1.49%




              Title XVI-Disability
                                                                                                                   Title II-Disability
                    43.65%
                                                                                                                        33.13%




                                                                                        Title II-Retirement
                                                           Title XVI-Aged                      8.71%
                                                                3.56%




April 1 – September 30, 2009                                                                                                                   15
Semiannual Report to Congress




                                 Allegations Received by Source

                                      10/1/08 - 3/31/09   4/1/09 - 9/30/09          FY 2009

       Law Enforcement                     22,332             24,488                 46,820
       Private Citizens                    5,497              17,286                 22,783
       Anonymous                           4,232               5,707                 9,939
       SSA Employees                       15,249             20,236                 35,485
       Other                               2,104               8,689                 10,793
       Beneficiaries                        658                1,771                 2,429
       Public Agencies                      402                 844                  1,246
       TOTAL                               50,474             79,021                129,495




                                Allegations Received by Category

                                      10/1/08 - 3/31/09   4/1/09 - 9/30/09          FY 2009

       SSI Disability                      21,699             28,602                 50,301
       Disability Insurance                16,660             30,496                 47,156
       SSN                                 5,648               9,351                 14,999
       Old-Age, Survivors Insurance        2,509               4,259                 6,768
       Other                               2,968               4,789                 7,757
       Employee                             499                1,004                 1,503
       SSI Aged                             491                 520                  1,011
       TOTAL                               50,474             79,021                129,495




16                                                                           April 1 – September 30, 2009
                                                                                    Semiannual Report to Congress




 SSN Misuse: Prostitution Ring Recruiter Sentenced was ordered to pay restitution of $149,283 to various
 to 11Years in Prison                              financial institutions and a local merchandiser.
 Our Ft. Lauderdale, Florida office conducted a joint
 investigation with the Federal Bureau of Investigation
                                                              SSN Misuse: Boston Resident Uses Identity of
 concerning a 25-year-old man who was a recruiter and
                                                              Incarcerated Recipient
 organizer of a prostitution ring involving minors and
 young adult females. The investigation revealed the         A joint investigation conducted by our Boston,
 man purchased identity documents, including Social          Massachusetts office, the U.S. Department of
 Security cards and United States birth certificates, from   State/Bureau of Diplomatic Security, and the U.S.
 a document vendor.                                          Department of Justice/Bureau of Alcohol, Tobacco,
 In June 2009, after entering a guilty plea stemming from Firearms and Explosives revealed that a Boston man
 sexual trafficking of a minor by force, fraud, or coercion, used the identification of an incarcerated SSI recipient.
 the man was sentenced to 132 months’ incarceration The investigation found that he used the SSI recipient’s
 and 10 years’ supervised release. The document vendor identity to obtain a Massachusetts driver’s license and
 previously pled guilty to a variety of charges including to apply for a U.S. Passport.
 knowingly transferring a false identification document. In June 2009, following his guilty plea to possession
 He was sentenced to 75 months in prison and 2 years with intent to distribute cocaine, false statements in
 of supervised release.                                      a passport application, and SSN misuse, the man was
                                                             sentenced to 70 months’ incarceration and 48 months’
                                                             supervised release.
 SSN Misuse: Man Ordered to Pay $151,000 in
 Restitution
 Acting on information received from the Frontenac, SSN Misuse: Man Sentenced on Federal Student
 Missouri Police Department and other local law Loan Fraud and SSN Misuse
 enforcement agencies, our St. Louis, Missouri office        Special Agents from our Boston Field Division, working
 investigated two individuals involved in jewelry store      in cooperation with the U.S. Department of Education/
 robberies, credit card fraud, and identity theft totaling   Office of Inspector General, the U.S. Postal Inspection
 over $250,000. The investigation revealed that the          Service, and the University of Massachusetts-Amherst
 man and his accomplice stole merchandise from jewelry       Police Department, investigated a former college
 stores and also appropriated the credit cards of the store  student. After defaulting on student loans secured with
 employees. The credit cards were then used to obtain        his own SSN, the student fraudulently obtained and
 goods from various merchants.                               used a second SSN to receive approximately $88,000
 Prior to his sentencing in June 2009, the man was a in Federal and state student aid.
 fugitive for 3 years. After pleading guilty to aggravated The student pled guilty to false statements, wire fraud,
 identity theft and conspiracy, the man was sentenced Federal student financial assistance fraud, and misuse of
 to 84 months’ imprisonment and 3 years’ supervised an SSN. He was sentenced in July 2009 to 6 months’
 release, and was ordered to pay restitution of $151,235 imprisonment, followed by 3 years of supervised
 to several financial institutions and a local merchandiser. release. In addition, he was ordered to pay restitution
 The subject’s accomplice had previously pled guilty of $84,866 to the U.S. Department of Education and
 to conspiracy, and was sentenced to 33 months’ $11,000 to the University of Massachusetts-Amherst.
 imprisonment and 3 years’ supervised release, and



April 1 – September 30, 2009                                                                                         17
Semiannual Report to Congress




 SSN Misuse: Telephone Service Representatives              SSA terminated the employee in January 2009. In
 from Private Company Sentenced in Conspiracy               May 2009, after pleading guilty to theft of Government
                                                            funds, the former employee was sentenced to 2 years
 A joint investigation conducted by our New York office, of supervised release and was ordered to make full
 the Syracuse Police Department, and the U.S. Secret restitution of $817 to SSA.
 Service revealed that a woman and her co-conspirator
 were employed as telephone service representatives for
 a Syracuse business that provided customer service
 support for various cellular telephone companies. The Employee Fraud: Former SSA Employee Convicted
 conspirators obtained names, dates of birth, SSNs, of Theft of Government Funds
 and other personally identifiable information (PII) Our Philadelphia Field Division/Special Projects Team
 from cellular phone customers and a credit union investigated an SSA employee in the SSA Atlanta
 employee. The PII was used to obtain credit and was Region, who obtained a paid contractual agreement
 sold on at least two occasions. Investigators identified with the National Combined Federal Campaign
 over 50 compromised identities, and found that the (CFC) to organize CFC Regional Workshops in the
 conspirators defrauded the credit union by conducting area. The employee requested and received approval
 account takeovers using customers’ PII.                    from SSA to conduct this work while off duty or on
 In July 2009, based on the woman’s guilty plea to annual leave; however, the investigation revealed that
 conspiracy and SSN misuse, the woman was sentenced the employee conducted this outside employment
 to 7 months’ incarceration followed by 3 years’ supervised while on duty. In addition, the employee submitted
 release. Her co-conspirator pled guilty to conspiracy, eight travel vouchers for reimbursement of expenses
 SSN misuse, aggravated identity theft, and impeding a incurred while conducting these workshops. The costs
 Federal officer in the performance of his duties. The co- associated with travel vouchers, as well as the 336 hours
 conspirator was sentenced to 26 months’ incarceration, of leave the employee should have taken to perform the
 and was ordered to pay restitution of $2,302 to a major outside work, totaled $28,058.
 telephone company and $1,680 to SSA for damage            The employee elected early retirement from SSA in
 caused to a vehicle when resisting arrest.                December 2007. In July 2009, pursuant to a guilty plea
                                                           to theft of government funds, the former employee was
                                                           sentenced to 12 months’ home confinement, 36 months’
 Employee Fraud: Former SSA Employee Steals                supervised release, and 200 hours’ community service,
 Money Orders                                              and was ordered to make full restitution of $28,058
                                                           to SSA.
 Acting on a referral from the South Phoenix, Arizona
 SSA office, our Phoenix office investigated an SSA
 Service Representative. After receiving a blank money
 order from a beneficiary to satisfy an overpayment, the
 employee negotiated the money order and expended
 the funds for her personal needs. The employee also
 received two additional money orders from another
 SSA beneficiary that were later recovered before they
 could be processed. Finally, the investigation revealed
 that the employee had stolen cash from SSA on a prior
 occasion.




18                                                                                   April 1 – September 30, 2009
                                                                                    Semiannual Report to Congress




 Hurricane Response Efforts                              these agencies advise SSA on the disposition of the
                                                         warrant so that appropriate administrative action on
 We continue to be actively involved in pursuing the benefits may be taken.
 investigations of fraud related to Hurricanes Katrina
 and Rita and helping SSA prepare for similar events Martinez vs. Astrue
 in the future. Because the SSN is a key identifier for Earlier this year, SSA’s Fugitive Felon Program was
 various disaster assistance programs, we have been a challenged by a group of litigants known collectively
 critical partner in multi-agency investigations of this as “Martinez,” the name of the original plaintiff. This
 type of fraud. In fact, we have assigned an agent to group challenged the Agency’s policy and procedures
 the DOJ’s Hurricane Katrina Fraud Task Force in in applying non-payment actions to fugitive felons
 Louisiana, where we have been involved in numerous and non-selection of fugitive felons as representative
 joint investigations of hurricane-related fraud.        payees. Upon the advice of the Department of Justice,
 Since the inception of the Task Force, OI has opened       SSA decided to settle this litigation and change its
 73 investigations and secured 64 indictments and 59        processing of certain fugitive felon non-payments and
 convictions of individuals for hurricane-related fraud.    representative payees.
 For this reporting period, our investigators secured six   As of April 1, 2009, SSA policy has been to suspend or
 indictments and three convictions of individuals for       deny Title II, Title VIII and Title XVI payments, or to
 hurricane-related fraud.                                   prohibit an individual from serving as a representative
 Arkansas Man Sentenced After Pleading Guilty               payee, only if the individual’s outstanding felony warrant
 to Mail Fraud                                              was issued for one of the following three offenses:
                                                            Escape, Flight to avoid prosecution, confinement, etc.,
 Based on a request for assistance from the Department and Flight-escape.
 of Homeland Security OIG, our Little Rock, Arkansas
 office investigated an individual who engaged in a The Martinez settlement does not affect SSA’s policy
 scheme to defraud the Federal Emergency Management or procedures for processing Title II, Title VIII or Title
 Agency (FEMA). The investigation revealed that the XVI payments or representative payee actions for cases
 person fraudulently submitted the SSNs of four other involving outstanding parole or probation violation
 individuals in order to receive $24,028 in FEMA warrants. Nor does the Martinez settlement affect
 assistance after Hurricane Katrina. In April 2009, after OIG’s data-sharing activities with law enforcement.
 pleading guilty to mail fraud, the man was sentenced OIG will continue matching subjects wanted for all
 to 1 year in prison, 3 years of supervised release, and offense codes and share SSA’s location information
 was ordered to pay restitution of $24,028 to FEMA. with the warrant-issuing law enforcement entity.
                                                            Additionally, the Martinez settlement applies to all
                                                            jurisdictions including the Second Circuit (New York,
 Fugitive Felon Program                                     Connecticut, and Vermont) where fugitive activities
                                                            had been curtailed, based on prior litigation. Data-
 The OIG’s Fugitive Felon Enforcement Program sharing for all offense codes now applies to this Circuit,
 identifies individuals reported to have outstanding and subjects wanted for any of the five offense codes
 felony arrest warrants and outstanding warrants for mentioned above can be referred to the Agency for
 parole and probation violations. SSA shares its location appropriate action.
 information for wanted felons with local law enforcement
 agencies to assist in their apprehension efforts. In turn,




April 1 – September 30, 2009                                                                                         19
Semiannual Report to Congress




 OIG’s Management and Fugitive Enforcement                    o The Illinois Department of Corrections reported the
 Program                                                     arrest of a subject on an outstanding parole violation
                                                             warrant dated May 2009. The subject was on parole
 Our data-sharing efforts with law enforcement agencies      for the original charges of Battery, Physical Contact,
 contributed to the arrest of over 16,300 subjects in        Inciting a Mob Action, Resisting and Obstructing an
 FY 2009, and over 87,600 arrests since the program’s        Officer, and Retail Theft. The subject was receiving
 inception in 1996. The following are some examples          SSI.
 of fugitive felon activities during the past 6 months.
                                                             Legal Impact Initiatives
 • OIG agents and members of the U.S. Marshals
 Service Fugitive Task Force arrested a Title II/Title       Section 1140 Enforcement
 XVI disability beneficiary based on multiple active
                                                             In our enforcement of Section 1140 of the Act, OCIG
 felony arrest warrants for Possession with the Intent
                                                             has learned of multiple Internet Web sites that appear
 to Distribute a Class B (cocaine) Substance in a
                                                             designed to mislead visitors to believe that they are
 School Zone, Breaking and Entering into a Building in
                                                             visiting SSA’s official Web site, or a Web site affiliated
 Daylight, Resisting Arrest, Disorderly Conduct, Giving
                                                             with SSA. Some of these Web sites receive revenue
 a False Statement to a Police Officer, and Assault and
                                                             from advertisers, such as Social Security disability
 Battery.
                                                             representatives, who capitalize on the Web site’s
 • Following are examples of cases that, using information   misleading character and attract clients through
 provided by OIG’s Fugitive Felon Enforcement                deception.
 Program, resulted in arrests.
                                                             Because the operators of many of these Web sites
    o The Smyth County Sheriff in Marion, Virginia           conceal their true identities, or are located outside
 arrested a wanted subject for a probation violation         of the United States, OCIG has begun pursuing the
 warrant dated 6/8/2009. The subject, an SSA                 disability representatives and others who advertise on
 beneficiary, had an underlying offense of Grand Theft       the offending Web sites, using the authority delegated
 Larceny.                                                    to OCIG under Section 1140 of the Act.
    o The Illinois Department of Corrections reported        To date, all entities contacted have voluntarily agreed to
 the arrest of a wanted subject on an outstanding parole     cease and desist from advertising on the deceptive Web
 violation warrant issued in May 2009. The subject, a        sites OCIG has identified. These efforts are ongoing.
 SSA beneficiary, was on parole stemming from charges
 of Robbery and Aggravated Battery on a person over
 60 years of age.




20                                                                                     April 1 – September 30, 2009
                               Semiannual Report to Congress




April 1 – September 30, 2009                             23
Semiannual Report to Congress




 Value                                                       individuals receiving Title II benefits as of March
                                                             2002. We estimated that approximately $1.37 billion
 The second goal of the OIG Strategic Plan is Value. in overpayments resulting from about 63,000 disabled
 All OIG initiatives strive to provide value to SSA, the beneficiaries’ work activity was not identified.
 Congress, other key decision makers, and the public by
                                                             In our April 2009 report, we estimated that
 delivering timely and reliable audit, investigative, and
                                                             approximately $3.1 billion was overpaid to about
 legal products and services. To achieve the intended
                                                             173,000 disabled beneficiaries because of work activity.
 value, these products and services must effectively meet
                                                             Although SSA identified about 58 percent of these
 the needs of all whom we serve while maximizing our
                                                             overpayments, we estimated the remaining 42 percent—
 available resources. To do this, we integrate best-practice
                                                             approximately $1.3 billion—went undetected by the
 strategies and the newest technologies to increase our
                                                             Agency to about 49,000 disabled beneficiaries. In
 productivity and maximize our return on investment
                                                             addition, we estimate SSA will continue to incorrectly
 to the public.
                                                             pay about $382 million over the next 12 months to
                                                             individuals who are no longer entitled to disability
                                                             benefits if action is not taken by the Agency.
 Value Attained Through Audits
                                                            We recognize SSA’s efforts to improve the work-
 Many of our audits are focused on identifying SSA          related continuing disability reviews (CDR) process. In
 programmatic and operational areas where funds             addition, we acknowledge the Agency’s limited resources
 could be put to better use. In addition, we often          with which to perform this workload. However, we
 question approaches and their accompanying costs,          believe SSA may achieve greater savings in the long term
 and we recommend alternatives to yield program and         if the Agency could provide the resources to perform
 operational savings.                                       work-related CDRs for all disabled beneficiaries with
 During this reporting period, our auditors issued 66 substantial earnings reported on the MEF. Based on
 reports, identifying over $2.9 billion in questioned costs our audit, we developed a potential benefit-cost ratio
 and more than $4 billion in Federal funds that could of $15 to $1. SSA agreed with our recommendation
 be put to better use. Some of our most notable audits to develop and implement a plan to allocate more
 are summarized below.                                      resources to timely perform work-related CDRs.


 Follow-up on Disabled Title II Beneficiaries with
 Earnings Reported on the Master Earnings File
 Our objective was to determine whether SSA evaluated
 earnings reported to the Master Earnings File (MEF)
 for disabled individuals receiving Title II benefits. In a
 July 2004 report, “Disabled Title II Beneficiaries with
 Earnings Reported on the Master Earnings File,” we
 stated that SSA did not evaluate all earnings reported
 to the MEF between 1996 and 2000 for disabled




22                                                                                    April 1 – September 30, 2009
                                                                                   Semiannual Report to Congress




 Supplemental Security Income Redeterminations              Enforcement Operation (EEO) compares beneficiaries’
                                                            reported earnings with earnings reported by employers.
 SSA periodically conducts redeterminations to
 determine whether recipients still meet SSI income         In a prior audit of the AET, we found that SSA had
 and resource requirements, and to determine whether        not adjusted the benefit payments for approximately
 they are receiving the correct SSI payment amount.         2.1 of 2.5 million earnings enforcement selections. Our
 Over the years, the number of SSI redeterminations         objective in conducting this audit was to (1) assess SSA’s
 conducted by SSA has decreased while the number of         progress in resolving approximately 2.5 million earnings
 SSI recipients has increased. In fact, from 2003 to 2008   enforcement selections; and to (2) quantify the amount
 the number of redeterminations conducted decreased         of improper payments for the affected beneficiaries.
 by more than 60 percent in response to SSA’s budget
                                                         We found SSA had not made significant progress to
 limitations and increases in SSA’s core workloads.
                                                         resolve the 2.5 million earnings enforcement selections.
 We conducted this review to determine the financial
                                                         Of the approximately 2.1 million selections that were
 impact of SSA’s conducting reduced numbers of SSI
                                                         pending at the time of our prior audit, we found SSA
 redeterminations. We estimate SSA could have saved
                                                         had processed about 337,500 (16.1 percent). In
 an additional $3.3 billion during FYs 2008 and 2009
                                                         addition, our review disclosed there were a substantial
 by conducting redeterminations at the same level it did
                                                         number of improper payments in the backlog for the
 in FY 2003.
                                                         affected beneficiaries. Based on our sample results, we
 We recommended SSA: (1) establish a methodology estimate that SSA:
 to identify the number of redeterminations that are
 needed each year, and to the extent the annual number • overpaid about $956 million to 616,459 beneficiaries,
 of necessary redeterminations is not completed, SSA and
 should identify the lost savings and document the • underpaid about $245 million to 181,312 beneficiaries.
 reasons the number of needed redeterminations was
 not completed; (2) establish a methodology to identify We are encouraged that SSA has taken steps to reduce
 the cost-savings ratio for redeterminations conducted the backlog and improve the EEO. SSA’s Office of
 each year; and (3) continue to pursue the establishment Quality Performance (OQP) stated it had processed
 of a self-funding program integrity fund. SSA agreed all the Earnings Enforcement selections for Calendar
 with the recommendations.                               Year (CY) 2004 and about 73 percent of the selections
                                                         for CY 2005. However, OQP has not presented a plan
                                                         on how to resolve the beneficiary records pending for
 The Social Security Administration’s Unprocessed CYs 1996 through 2003.
 Annual Earnings Enforcement Selections                 We recommended that SSA develop a cost-effective
 The Act requires that SSA use an Annual Earnings plan to process, as appropriate, the backlogged Earnings
 Test (AET) to measure the extent of beneficiaries' Enforcement selections for CYs 1996 through 2003.
 retirement. Beneficiaries with earnings over an annual SSA agreed with our recommendation.
 exempt amount receive reduced benefits. To ensure
 compliance with the AET provisions, SSA’s Earnings




April 1 – September 30, 2009                                                                                         23
Semiannual Report to Congress




 Payments to Individuals Whose Numident Record beneficiaries with a death indicator on their Numident
 Contains a Death Entry                                    receiving benefits and take action to determine the living
                                                           status for these individuals. This could be accomplished
 The Act requires that SSA match death records from either by improving follow-up on DACUS alerts or
 various sources against SSA payment records to implementing a new periodic review. SSA agreed
 identify and prevent erroneous payments after death. with recommendations 1 through 3, and partially
 SSA uses the Death Alert, Control, and Update System agreed with recommendation 4. We believe SSA’s
 (DACUS) to process death information and to record response and planned actions adequately addressed
 dates of death on the Numident, a data file that houses our recommendations.
 PII for each number holder. DACUS was designed
 to ensure that all benefits to deceased beneficiaries are
 terminated appropriately.
                                                           Supplemental Security Income Recipients with
 Our objective in conducting this audit was to determine Unreported Vehicles
 the appropriateness of benefits paid to individuals
 whose Numident record contained a date of death. In In determining whether an individual is eligible for SSI
 March 2009, we obtained data that identified 6,733 based on their resources, SSA excludes the value of one
 beneficiaries in current payment status whose Numident vehicle per family regardless of its value. Additional
 record contained a date of death. In many instances vehicles are generally counted as a resource. Our
 reviewed, we verified that the individuals were alive and objective in conducting this audit was to determine the
 that death entries appearing on their Numident were accuracy of SSA’s determinations of an SSI applicants’
 erroneous. However, we also confirmed a significant or recipients’ resources related to vehicle ownership.
 number of these individuals were, in fact, deceased. We found that SSA’s records regarding vehicle
 Based on our results, we estimate that SSA made ownership by SSI recipients were not always accurate.
 approximately $40.3 million in improper payments Of the 275 sampled SSI recipients, 68 (25 percent) did
 to deceased beneficiaries after their date of death was not report that they owned vehicles when in fact they
 recorded in SSA’s records. Further, we estimate SSA did. In addition, 11 of these 68 individuals exceeded the
 would make approximately $6.9 million in additional resource limit for SSI eligibility when the values of their
 improper payments over the next 12 months if these unreported vehicles were counted as resources, resulting
 discrepancies were not corrected.                         in improper payments totaling $80,107. Estimating
 We provided the data to SSA Operations and these results to the total population, approximately
 recommended that SSA: (1) determine the current 468,140 recipients inaccurately reported their vehicle
 living status of all 6,733 beneficiaries; (2) terminate ownership to SSA and about 75,720 recipients were
 benefits, recover improper payments, and refer potential improperly paid approximately $551 million because of
 instances of fraud to the Office of Investigations for inaccuracies in SSA’s records. Further, we found that in
 all beneficiaries determined to be deceased during some instances, although SSA staff has access to Lexis/
 living status verifications; (3) remove erroneous dates Nexis Risk Management Solution Database, which
 of death on the beneficiaries’ Numident record for helps to verify the accuracy of resource allegations, and
 all beneficiaries determined to be alive during living the National Automobile Association e-Valuator, which
 status verifications; and (4) periodically identify all helps to determine the value of vehicles, SSA staff did
                                                           not determine vehicle values as required.




24                                                                                    April 1 – September 30, 2009
                                                                                  Semiannual Report to Congress




 We recommended that SSA: (1) assess the costs/             Value Attained Through Investigations
 benefits of requiring the use of Lexis/Nexis queries
 for those SSI applicants and recipients determined to      During this reporting period, the efforts of our
 be less likely to report vehicle ownership; (2) assess     investigators yielded significant results arising from
 the costs/benefits of obtaining vehicle registration       the successful prosecution of cases that we developed.
 information directly from States that allow access         Our investigators achieved over $171 million in
 to vehicle ownership records so it can be used to          investigative accomplishments, with over $26 million
 verify recipients’ resources during initial applications   in SSA recoveries, restitution, fines, and settlements/
 and redeterminations; (3) use vehicle registration         judgments; and over $144 million in projected savings
 information obtained from Lexis/Nexis or directly          from investigations resulting in the suspension or
 from the States to update the redetermination              termination of benefits.
 selection model to ensure that recipients less likely      The following table represents the efforts of OI
 to report their vehicle ownership are selected more        personnel nationwide to recover SSA funds paid in
 frequently for redeterminations; and (4) remind staff      fraudulent benefits or through other illegal actions.
 to follow policy on the use of the National Automobile
 Dealer’s Association e-Valuator or a disinterested,
 knowledgeable source when determining the value of
 applicants’ or recipients’ vehicles. SSA agreed with the
 recommendations.




                                             SSA Funds Reported

                                             10/1/08 - 3/31/09      4/1/09 - 9/30/09          FY 2009

         Recoveries                               $10,843,514           $12,533,052           $23,376,566
         Fines                                     $1,503,677             $1,360,865            $2,864,542
         Settlements/Judgments                       $722,739               $665,951            $1,388,690
         Restitution                              $11,871,354           $12,255,559           $24,126,913
         Estimated Savings                       $142,007,915          $144,248,826          $286,256,741
        TOTAL                                   $166,949,199          $171,064,253          $338,013,452




April 1 – September 30, 2009                                                                                      25
Semiannual Report to Congress




 The following case summaries are indicative of the         Disability Program Fraud: Disabled Man Conceals
 more than 3,700 investigations that we closed during       Ownership of Extermination Company
 this reporting period. The cases we have highlighted
                                                            Acting on a referral submitted by our Allegation
 illustrate the many instances where our investigative
                                                            Management and Fugitive Enforcement Division, our
 efforts have resulted in a significant return on
                                                            Phoenix, Arizona office investigated a Title II disability
 investment.
                                                            beneficiary for concealing his ownership and operation
                                                            of a bee removal and extermination company. The
                                                            business has been in existence since the late 1980s and
 Disability Program Fraud: Lawn Care Business had revenues in excess of $424,000 from January 1999
 Owner Fraudulently Receives $177,448 in SSA through August 2006.
 Benefits
                                                            A jury convicted the man of Social Security fraud,
 Acting on information supplied by the local SSA office and he was sentenced to 5 years’ probation and was
 our San Francisco, California office investigated a Title ordered to perform 200 hours of community service. In
 II disability beneficiary. The investigation revealed that addition, he was ordered to pay restitution of $126,265
 the man concealed his ownership of a lawn care and to SSA.
 gardening business from SSA. Following his plea of
 guilty to theft of Government property and Social
 Security fraud, the man was sentenced to 1 year in
 prison and 3 years of supervised release, and was Disability Program Fraud: Disability Beneficiary
                                                            Fails to Report Operation of Gym
 ordered to pay restitution of $177,448 to SSA.
                                                            Our Ft. Lauderdale, Florida office investigated a Title II
                                                            disability beneficiary for failing to report that he owned
 Disability Program Fraud: Disability Beneficiary and operated a gym. The man also concealed his work
 Uses Son’s SSN to Conceal Wages                            and earnings as a Realtor specializing in the luxury
                                                            home market in Florida and the Bahamas. In July 2009,
 Based on information supplied by a private citizen, our based on his guilty plea to Social Security fraud, the
 Cincinnati, Ohio office investigated a Title II disability man was sentenced to 3 months’ home confinement
 beneficiary who concealed his wages. The investigation with electronic monitoring, followed by 48 months’
 revealed that from October 2001 through March 2008, supervised release, and was ordered to perform 250
 the beneficiary used his son’s SSN to conceal his work hours of community service. Prior to his sentencing,
 and earnings from SSA.                                     the man refunded $74,816 to SSA.
 The man pled guilty to theft of Government funds,
 and in August 2009 was sentenced to 1 month of
 incarceration and 3 years of probation, and was ordered
 to pay restitution of $133,173 to SSA.




26                                                                                    April 1 – September 30, 2009
                                                                                  Semiannual Report to Congress




 Representative Payee Fraud: Mother Fails to Report         as well as $258,211 in benefits from State and local
 Child Not in Custody                                       agencies. After pleading guilty to theft, the mother
                                                            was sentenced to 2 years’ incarceration and was ordered
 Our Columbia, South Carolina office, acting on a to pay full restitution to SSA and local social service
 referral from the local SSA office, investigated a Title agencies.
 II young mother’s beneficiary who also served as the
 representative payee for her son’s Title II survivor’s
 benefits. The mother failed to report that her son was
 not in her custody, which voided her entitlement to Representative Payee Fraud: Payee Pleads Guilty to
 Title II benefits. After pleading guilty to theft, she was Embezzlement
 sentenced to 5 months of incarceration, 5 months of Acting on a request for investigative assistance from
 home confinement, and 3 years of probation, and was the Federal Bureau of Investigation, our Kansas
 ordered to pay restitution of $134,927 to SSA.             City, Missouri office investigated a county public
                                                            administrator who also served as representative payee
                                                            for 120 disabled clients’ Social Security benefits. Our
 Representative Payee Fraud: Payee Fails to Report investigation determined that the representative payee
 Beneficiary’s Death                                        embezzled over $119,063 from the clients’ accounts.
                                                            After pleading guilty to theft of Government funds,
 Our Chicago, Illinois office, using information provided the representative payee was sentenced to 37 months
 by SSA’s Office of Quality Performance, investigated the of incarceration and 3 years of supervised release.
 representative payee of a Title II disability beneficiary In addition, the representative payee was ordered to
 who died in 1997. The investigation revealed that from pay restitution of $115,658 to the County Public
 August 1997 through October 2007, the representative Administrator’s office and $3,405 to a casualty bonding
 payee converted $87,661 of the deceased’s benefits for company.
 his own use. He pled guilty to theft of Government
 funds and was sentenced to 1 year in prison and 3 years
 of supervised release, and was ordered to pay restitution
                                                            Deceased Payee Project: Man Fraudulently
 of $87,661 to SSA.
                                                            Withdraws SSA Funds from Deceased Mother’s
                                                            Bank Account
 Representative Payee Fraud: Mother Conceals             Our Boston, Massachusetts office conducted an
 Resources from SSA                                      investigation as part of the National Deceased Payee
                                                         Project (BIC-D), which identifies widows and widowers
 Our Los Angeles, California office, based on a referral of Title II beneficiaries whose benefits continued to be
 from the Los Angeles County District Attorney’s Office, paid after their death. The investigation revealed that
 investigated a mother who served as the representative SSA continued to issue benefits via direct deposit to the
 payee for her disabled child. Our investigation deceased beneficiary after her death in November 2003.
 revealed that the mother concealed her ownership of From November 2003 through December 2007, her
 excess vehicles and jewelry from SSA and local social son accessed his mother's bank account and converted
 service agencies. Due to her material omissions, she her SSA benefits for his own personal use.
 fraudulently received $82,950 in SSI for her child,




April 1 – September 30, 2009                                                                                      27
Semiannual Report to Congress




 After pleading nolo contendere (no contest) to obtaining
 property under false pretenses, the man was sentenced
 in May 2009 to 3 years’ incarceration (suspended) and
 10 years’ probation, and was ordered to pay restitution
 of $75,012 to SSA.


 Deceased Payee Project: Daughter Withdraws
 Deceased Mother’s SSI Payments
 Our Manchester, New Hampshire office conducted
 this investigation as part of the BIC-D Project. The
 investigation revealed that an SSI recipient’s mother
 died in July 2003 and that SSA continued to pay
 the Title II widow’s benefits via direct deposit. The
 deceased’s daughter withdrew the benefits using the
 deceased’s ATM card and used the money for her own
 personal gain. In June 2009, after pleading guilty to
 larceny and uttering a promissory note falsely endorsed
 (fraudulent use of the ATM card), the woman was
 sentenced to 5 years’ probation. She was also ordered
 to perform 200 hours of community service, and to pay
 restitution of $59,720 to SSA.


 Deceased Payee Project: Woman Cashes Mother’s
 Checks After Her Death
 Our Dallas, Texas office conducted this investigation as
 part of the BIC-D Project. The investigation revealed
 that after the woman’s mother died in October 2002,
 the woman cashed her mother’s benefits and converted
 the SSA funds to her own use. In April 2009, after
 pleading guilty to theft of Government funds, the
 woman was sentenced to 36 months’ probation and
 was ordered to pay restitution of $59,458 to SSA.




28                                                          April 1 – September 30, 2009
                                                                                    Semiannual Report to Congress




 Cooperative Disability                                      interview, the woman remained standing and did not
                                                             use any assistive devices for mobility. At no time during
 Investigations Program                                      the interview did she display any physical or mental
 Our CDI Program continues to be one of our most             limitations. The DDS denied the woman’s claim.
 successful initiatives, contributing to the integrity
 of SSA’s disability programs. CDI is a joint effort
 of the OIG, SSA, Disability Determination Service           Man Exaggerates His Functional Limitations
 (DDS), and State and local law enforcement personnel.
                                                   Our Tampa, Florida CDI Unit investigated a 54-year-
 Established in 1998 with Units in just 5 States, our
                                                   old man who applied for SSI due to back problems,
 CDI program now has 20 Units in 18 States. The    electrolyte imbalance, diabetes, and high blood pressure.
 Units work to obtain sufficient evidence to identify and
                                                   On his disability application, the man reported the
 resolve issues of fraud and abuse related to initial and
                                                   inability to work because he cannot be outside in the
 continuing disability claims.                     heat. The man stated that he sweats profusely, gets
 The following CDI case summaries highlight major cramps, dehydrates, passes out, and has chronic pain
 investigations we conducted during this reporting preventing him from doing any physical activity. The
 period which enhanced SSA program integrity and Tampa DDS referred this case because it was suspected
 the reliability of SSA’s operations.              that the man exaggerated his functional limitations.
                                                             Witness interviews indicated that the man is frequently
                                                             seen walking with a cane, but not relying on the cane
 Construction Worker Conceals Employment                     for support, and standing for extended periods of time
 Our Salem, Oregon CDI Unit investigated a 21-year-          with no apparent difficulties. The temperature was
 old woman who applied for Title II and Title XVI            approximately 85 degrees. The man was also observed
 disability benefits due to hip problems, alleging the       riding a bicycle without any observable difficulties,
 inability to stand or walk for extended periods. The        and then walking 20 feet to the door of his residence
 woman reported the need to use a cane and crutches,         after getting off the bike. The man did not use assistive
 that her daily activities included only resting and         devices, his gait appeared normal, and he did not appear
 napping, and that she was unemployed. The Oregon            to favor one side over the other while walking. The
 DDS referred this case to the CDI Unit because they         Tampa DDS denied the man’s SSI claim.
 believed the woman’s symptoms were exaggerated or
 false, and that the case was suspicious as there was no
 recent medical history.
 During an interview, the woman reported working
 for her uncle in the construction field. The woman
 stated she is paid monthly in cash, but that her earnings
 fluctuate depending on the season. She also talked
 about her recent weight gain and advised that she joined
 a local athletic club where she had exercised 5 days a
 week for the last month. Throughout the 40-minute




April 1 – September 30, 2009                                                                                         29
Semiannual Report to Congress




 SSI Recipient Fails to Report Excess Income and         The CDI investigation determined that the doctor’s
 Resources                                               signature had been forged on two separate SSA
                                                         documents including the signed statement. We also
 Our Boston, Massachusetts CDI Unit investigated a       found that the school teacher’s signature had been
 37-year-old woman receiving SSI due to carpal tunnel    forged and that her name was misspelled. Information
 syndrome, chronic depression, anxiety, and diabetes.    obtained from the daughter’s school indicated no
 On her disability application, the woman reported       evidence of the daughter experiencing seizures; in fact,
 that she no longer lived with her spouse and that they  the school advised that the child was the star basketball
 were separated. The woman also reported that her        player in the ninth grade until she injured her leg. The
 estranged spouse had lowered the amount of his child    DDS denied the child’s application for SSI disability
 support payments due to changes in his work status.     benefits.
 The woman’s landlord informed SSA that the woman’s
 spouse was routinely observed at her residence. SSA
 referred this case due to inconsistent statements made
 by the woman, and wage records which indicated Woman Blames Attorney for Failure to Disclose
                                                        Employment
 substantial earnings for the woman’s spouse.
                                                        Our Chicago, Illinois CDI Unit investigated a 51-year-
 An interview with the woman’s estranged spouse
                                                        old woman who was receiving Title II disability benefits
 indicated that he spent his weekends with the woman
                                                        due to fibromyalgia, sclerosis, manic depression,
 and their daughter. The man reported providing
                                                        and gastroenterological problems. The West Bend,
 a majority of his paycheck to his spouse in order to Wisconsin SSA office referred this case after receiving
 meet his child support requirements, to assist with an anonymous call reporting that the woman was
 household needs, and to support his spouse’s personal working.
 needs. Also, the man advised that he did not stay with
 the woman during the week because his job was located The woman’s employer was interviewed and stated that
 in another city. The CDI Unit’s investigation revealed the woman was currently employed full-time answering
 that the woman’s monthly income exceeded what she the phone, coordinating tradesman assignments,
 had reported to SSA and that she failed to report two interacting with customers, and maintaining office
 vehicles registered in her name. SSA terminated the files. The employer described the woman as a good
 woman’s SSI payments.                                  employee who never exhibited any physical or mental
                                                        impairments. During a CDR, the woman reported
                                                        that she was still disabled and provided information
                                                        regarding her physicians and prescriptions. When asked
 Woman Forges Signatures of a Doctor and Teacher
                                                        about her employment, the woman said her attorney
 Our Little Rock, Arkansas CDI Unit investigated a advised her not to disclose her employment because she
 46-year-old woman who applied for SSI on behalf would lose her disability benefits.
 of her daughter. The disability application indicated SSA terminated the woman’s Title II disability benefits,
 that the daughter had blackouts, chronic asthma, and resulting in an overpayment of $8,086. This case was
 hypertension, was unable to participate in athletic referred to and accepted by OCIG for CMP assessment.
 activities, and has had multiple seizures at school.
 In addition, the woman provided signed statements
 from a doctor and teacher confirming her daughter’s
 alleged disabilities. The Arkansas DDS referred this
 case because the signed statements were suspected of
 containing forged signatures.



30                                                                                 April 1 – September 30, 2009
                                                                                     Semiannual Report to Congress




 Owner of a Food and Wine Tasting Company Feigns              Acting in an undercover capacity, CDI Unit investigators
 Disability                                                   interviewed the woman. The woman reported that she
                                                              has arthritis, but does not take medications or receive
 The St. Louis, Missouri CDI Unit investigated a              treatment for arthritis. She informed the investigators
 28-year-old female who applied for DI benefits and           that approximately 2 months earlier, she received
 SSI alleging debilitating chronic migraine headaches         therapy from a doctor for a vehicle accident. During
 causing cyclical vomiting, insomnia, unexplained             the interview, the woman appeared alert, focused, and
 blackouts, and anxiety. The woman reported that              maintained eye contact with the investigators. The
 she lacks strength and energy, that her headaches            woman stood during the entire interview and never
 disrupt her concentration, that she cannot drive due to      exhibited any signs of pain or discomfort.
 migraine-induced vision loss, and that she cannot read,
 write, or use the computer for more than an hour. The The Texas DDS denied the woman’s claim. This case
 woman stated that her insomnia and depression keep was referred to OCIG for possible CMP assessment
 her completely exhausted and isolated. The Missouri based on the woman’s false statements.
 DDS referred this case due to inconsistencies with the
 woman’s allegations and the information revealed from
 her medical records.
 CDI Unit investigators discovered that the woman
 owns and operates her own food and wine tasting
 hospitality business. She has a Web site and an online
 “Twitter” account for the business. Through the Web
 site, we determined that the woman has hosted public
 and private wine tasting events. Multiple photographs
 were displayed from events at wineries, art museum
 tours, food and wine classes, wedding showers, and
 charity events. The woman and her business have been
 mentioned in newspaper articles and she was recently
 featured in an a St. Louis’ Sauce Magazine article titled,
 “One To Watch, a Food and Drink Pro with Promise.”
 The St. Louis DDS denied the woman’s claim. This
 case was referred to SSA for administrative action.


 Woman Exaggerates Medical Condition
 Our Dallas, Texas CDI Unit investigated a 27-year-
 old woman who applied for DI benefits and SSI due
 to depression and bone problems. SSA referred this
 case due to suspected malingering and exaggeration of
 symptoms. During an interview, the woman reported
 that she had not received treatment for her depression
 since 2007.




April 1 – September 30, 2009                                                                                         31
Semiannual Report to Congress




     The following table highlights the successes of the CDI program, which yielded over $121 million in
     SSA program savings during this reporting period and more than $240.2 million during FY 2009.
                         Cooperative Disability Investigations Program Results
                                             April 1 – September 30, 2009
                                       Allegations            Confirmed                 SSA                 Non-SSA
           State
                                        Received             Fraud Cases              Savings1               Savings2
           Arizona                         147                   108                 9,075,466              3,412,329
           Arkansas3                          52                    17               1,453,500               695,923
           California4                       469                   183              15,005,150             12,747,019
           Colorado                           92                    59               5,044,500              3,239,982
           Florida                            71                    29               2,269,506              1,542,508
           Georgia                           276                   141              11,910,338              5,413,909
           Illinois                           55                    49               3,701,316              1,681,404
           Louisiana                         112                    54               4,579,830              2,486,075
           Massachusetts                      80                    39               2,958,617              1,823,007
           Missouri                           93                    64               5,109,564              2,522,863
           New Jersey                        113                    49               4,189,500              3,392,002
           New York                           91                    71               6,083,010              4,598,602
           Ohio                              245                    73               5,783,070              3,534,213
           Oregon                            111                    85               6,965,400              4,791,811
           Tennessee                          77                    63               5,386,500              2,434,428
           Texas5                            420                   199              16,398,332              9,353,150
           Virginia                          131                    84               7,173,792              5,158,697
           Washington                        160                    96               7,838,520              4,457,984
           TOTAL (4/1/09-9/30/09)          2,795                  1,463           $120,925,911 $73,285,906
           TOTAL (10/1/08-3/31/09)         2,369                  1,505           $119,335,793 $65,926,243
           FY 2009 TOTAL                   5,164                  2,968           $240,261,704 $139,212,149
       1
         SSA program savings are reported at a flat rate of $66,500 for initial claims that are denied as a result of CDI
       investigations. When a CDI Investigation supports the cessation of an in-pay case, SSA program savings are calculated
       by multiplying the actual monthly benefit times 60 months.
       2
         Non-SSA Savings are also projected over 60 months whenever another governmental program withholds benefits as a
       result of a CDI investigation, using estimated or actual benefit amounts documented by the responsible agency.
       3
         The Little Rock, Arkansas unit was established on October 1, 2008.
       4
         California has two units, one in Los Angeles and the other in Oakland.
       5
         Texas has two units, one in Dallas and the other in Houston.

32                                                                                                April 1 – September 30, 2009
                                                                               Semiannual Report to Congress




 Value Attained                                        payees for wrongful conversion of payments made
                                                       under the Social Security programs, and to penalize
 Through Legal Initiatives                             individuals who knowingly withhold a material fact
 OCIG’s efforts to administer the portion of the CMP from SSA. After consultation with the DOJ, OCIG is
 program which deals with violators of Section 1129 authorized to impose penalties of up to $5,000 for each
 of the Act maximize the resources available to us and false statement, representation, conversion, or omission.
 create a positive return on investment. Section 1129 A person may also be subject to an assessment, in lieu
 of the Act allows for the imposition of a CMP against of damages, of up to twice the amount of any resulting
 those who make false statements or representations overpayment.
 in connection with obtaining or retaining benefits or The following table and cases highlight the value
 payments under Titles II, VIII, or XVI of the Act. In achieved through our Section 1129 efforts for this
 addition, CMPs may be used to penalize representative reporting period.




                           Civil Monetary Penalty Activity Under Section 1129

                                             10/1/08 - 3/31/09   4/1/09 - 9/30/09          FY 2009

         Cases Received                           1,367                 899                  2,266
         Cases Initiated                           164                   49                   213
         Cases Closed                              853                  250                  1,103
         Penalties and Assessments Imposed      $2,574,381          $2,273,156            $4,847,537
         Number of Hearings Requested               10                   5                    15




April 1 – September 30, 2009                                                                                   33
Semiannual Report to Congress




 Subject Concealed Brother’s Residence in State- The man was denied disability benefits based on the
 Funded Program                                           OIG investigation, and OCIG proposed a $15,000
                                                          CMP for his false statements. The man appealed the
 An Arizona woman acting as her brother’s representative CMP to the Departmental Appeals Board. The ALJ
 payee wrongfully received and used his SSI payments. issued a decision sustaining OCIG’s $15,000 penalty.
 From April 2000 through August 2007, the woman
 failed to report that her brother was not living in her
 household, in order to continue receiving his benefits.
 She used the benefits intended for her brother for her Representative Payee Keeps Benefits for Children
 own personal expenses for 7 years, and she received Taken from Her Custody
 $48,000 to which she was not entitled. OCIG imposed A woman in Tucson, Arizona, serving as the
 a CMP in the amount of $35,000, and an assessment representative payee for two of her children, failed
 in lieu of damages in the amount of $60,000, for a total to tell SSA that the children had been removed from
 of $95,000.                                              her custody and given to Arizona's Child Protective
                                                          Services (CPS) in August 2006. The subject continued
                                                          to cash the Title II checks intended for her children, as
 Tennessee Man Engages in Representative Payee well as Child-in-Care benefits payable to herself until
 Fraud                                                    June 2007, when CPS filed for SSA benefits on behalf
                                                          of the children. OCIG imposed a civil monetary penalty
 A Tennessee man serving as his mother’s representative of $55,395.
 payee failed to pay for her nursing home care for a
 4-month period, resulting in an outstanding balance
 of $12,699. Moreover, he continued to receive her
 monthly SSI payments for a period of 1 year after her Illinois Woman Fails to Report Work Activity is
 death, and failed to disclose to SSA that his mother Assessed $127,077 CMP
 owned two properties that were generating rental OIG investigated an allegation that a disability
 income. The total overpayment was $16,380. OCIG beneficiary had failed to report her work to SSA. The
 successfully negotiated a CMP settlement of $65,000. investigation revealed that the woman had continued to
                                                          accept Title II disability benefits, both for herself and
                                                          as the representative payee for her son, while working
 Georgia Businessman Denied Disability Insurance various jobs. The woman’s entitlement to disability
 Benefits                                                 benefits began in 1992. After being interviewed by
                                                          OI agents in 2007, the subject admitted to having
 A Georgia man was running a tree removal business concealed her work activity. OCIG imposed a CMP
 when he applied for disability benefits claiming that of $127,077.
 he had not worked since 2001 due to a back injury.
 An OIG investigation revealed that not only had he
 been running the business, but he operated much of the
 heavy machinery himself. Further investigation revealed
 that the man had an extensive criminal history which
 included weapons violations, assault, and child abuse.




34                                                                                  April 1 – September 30, 2009
                                                                                      Semiannual Report to Congress




 New Mexico Woman Agrees to CMP Settlement of                  California Woman Agrees to CMP Settlement of
 $63,412 for Representative Payee Conversion                   $33,346 for Deceased Payee Fraud
 A New Mexico woman improperly received Title II               A California woman cashed the Social Security checks
 survivors benefits for herself and her daughter for 4 years   of her deceased grandmother by fraudulently assuming
 after her husband’s death. However, SSA discovered            the grandmother’s identity. The subject perpetuated
 that the subject did not have custody of her daughter         a fraudulent scheme that was initiated by her own
 for 12 years due to child neglect. The woman repeatedly       mother, who cashed her mother’s checks for over 7 years
 claimed that the daughter lived with her and that she         until she herself died. At the time of her mother’s death,
 used all of the SSA benefits for the care and support         the subject learned of the fraudulent scheme. Although
 of her daughter. In a CMP action, OCIG negotiated a           the subject had an opportunity to notify SSA about
 settlement with the subject. The subject agreed to pay        the death of the grandmother, she continued the same
 a penalty of $20,000 for multiple false statements and        scheme.
 a $43,412 assessment for a total recovery of $63,412.
                                                           An OIG investigation found evidence that the subject
                                                           wrongfully converted $8,346 from her grandmother’s
                                                           checks. In a CMP action, OCIG negotiated a settlement
 $30,000 Penalty Imposed on a California Home with the subject. The subject agreed to pay a penalty
 Health Care Provider with a Dual Identity                 of $25,000 for multiple false representations, and an
 A California woman received SSI under her true $8,346 assessment, for a total recovery of $33,346.
 name and SSN while working as a home health care
 provider under a fraudulent name and fraudulent
 SSN. Moreover, the subject was paid by the State of
 California under her false identity for her services to a
 number of clients, including caring for herself under her
 true identity. Subsequently, the subject was criminally
 prosecuted by the State of California and forced to
 make criminal restitution.
 The criminal prosecution, however, failed to deter the
 subject from applying for SSI once again. An OIG
 investigation demonstrated that the subject applied for
 SSI and provided six false statements to SSA regarding
 her name, SSN, and work activity. OCIG imposed a
 $30,000 penalty based on the six false statements that
 she made when she re-filed for SSI.




April 1 – September 30, 2009                                                                                            35
Semiannual Report to Congress




 People                                                     Human Resource Planning
                                                            and Management
 The third goal of the OIG Strategic Plan is People.
 The collective effort of our employees continues to be     We actively pursue and work to retain the best possible
 the driving force behind this organization’s success in    employees. First, our budget and staffing plan forecasts
 meeting its mission. We provide an encouraging and         employee departures based on historical trends and
 rewarding work experience with the goal of retaining       human resource data, which allows us to establish
 these exceptional individuals. OIG leadership fosters an   optimal timeframes for recruiting new employees.
 environment where employees can realize their potential    Moreover, OIG managers monitor staffing to ensure
 through training and developmental programs. OIG           that vacant positions are filled promptly, ensuring
                                                            that OIG components have the ability to fulfill their
 components convene training sessions to inform their
                                                            respective missions.
 employees about new procedures at various levels of
 our organization. In addition, the OIG Organizational   Our human resource specialists and recruiters
 Health Committee conducts an annual assessment of       participate in job and career fairs nationwide. We
 employee satisfaction levels and addresses employee     have enhanced our outreach efforts with updated
 concerns.                                               recruitment displays and brochures. These events
                                                         target underrepresented groups in the labor market,
                                                         allowing us to maintain a truly diverse workforce. Once
 Budget                                                  we identify the best candidates, we employ a structured
                                                         interview process to fairly assess their qualifications.
 For FY 2009, our annual appropriation was $98 million, Through these efforts, we have hired 52 employees in
 which supported an estimated end-of year staffing level FY 2009.
 of 589. The salaries and benefits of our employees
 accounted for 85 percent of our spending. We used Also, of the eight participants in OIG’s inaugural
 the remaining 15 percent for necessary expenses such Leadership Development Program (LDP), which was
 as travel, training, communications, reimbursable work launched in FY 2008, two have since been accepted
 authorizations and general procurements, as well as into SSA’s SES Candidate Development Program and
                                                         four have been promoted within OIG to leadership
 to provide for basic infrastructure needs such as rent
                                                         positions. We have announced the second offering
 and interagency service agreements. The FY 2009
                                                         of the LDP, and five selections have been made. This
 budget supported our efforts to meet and exceed our
                                                         second LDP will begin in January 2010.
 expectations set forth in our Strategic Plan for Fiscal
 Years 2006 – 2010, Fourth Edition. The goals and
 accomplishments measured in our Strategic Plan are
 also published in the Annual Congressional Budget
 Justification.




36                                                                                   April 1 – September 30, 2009
                                                                                  Semiannual Report to Congress




 Information Technology                                      Outreach Efforts
 We provide and maintain our own IT systems. Our IT        We are always seeking new ways to reach out to the
 specialists value state-of-the-art tools and place a high wider Federal community as well as to members of
 priority on ensuring that OIG employees have the latest   the public. In a variety of venues, we share our mission
 proven technologies with which to perform their work.     of promoting integrity and excellence in Social
                                                           Security programs and operations. These occasions
 During this reporting period, OIG IT specialists are important opportunities to exchange information
 worked to incorporate electronic case folder capabilities and forge partnerships. They also give us the chance
 into our National Investigative Case Management to educate and inspire public confidence in Federal
 System (NICMS). NICMS is a model for investigative programs.
 case management across the Federal Government. In
 addition, we have automated several administrative and The following are other examples of outreach conducted
 business processes, and will continue to proceed in this by OIG officials and personnel.
 direction to save both time and money.                    • OIG oversees a nationwide recruitment effort to target
 In support of the President’s goal to expand electronic     underrepresented groups. This FY, recruiters attended
 services, we maintain an Internet Web site that is          10 recruitment fairs. OIG has subsequently hired 24
 both informative and useful to the public. During           individuals (46% of new hires) from minority groups,
 this reporting period, our Web site was completely          which yielded an increase in our minority population
 redesigned to make information easier to find and           of Hispanic males; Asian/Pacific Islander males and
 our Web-based services easier to use. A workgroup           females; and Native American males.
 comprised of administrative specialists, attorneys,      • A member of the OI’s Manpower and Administration
 auditors, and investigative personnel continually        Division was instrumental in SSA’s efforts to hire
 monitor the OIG Web site to ensure that information      disabled veterans designated as "Wounded Warriors."
 is accurate and up-to-date.                              SSA held two major job fairs in an effort to identify and
 Finally, our IT staff analyzes industry trends to find hire disabled veterans. Our staff member, who has been
 new technologies which may enhance our business involved with the "Wounded Warrior Program" both
 processes. During this reporting period, we have at Walter Reed Army Hospital and the Naval Hospital
 continued to expand the use of virtual technologies and in Bethesda, Maryland, was the catalyst for initiating
 have begun to pilot virtual desktop infrastructure for SSA’s interest in this program.
 both internal and remote use to reduce hardware and • During his off-duty hours, an agent from our
 deployment costs and enhance data security. OIG IT Pittsburgh, Pennsylvania office and his wife
 specialists continue to meet the challenge of providing have organized a food pantry for the residents of
 a variety of IT support services for over 90 OIG offices Westmoreland County. Noting the continued
 throughout the country.                                  economic downturn and the need to provide monthly
                                                          food assistance to their local community, the agent and
                                                          his wife, along with other community leaders, have
                                                          begun distributing food assistance once a month to




April 1 – September 30, 2009                                                                                      37
Semiannual Report to Congress




 needy families in conjunction with the Westmoreland
 County Food Bank.
                                                             A Special Thank You
 • On May 15, 2009, agents with our Baton Rouge
 office and CDI Unit assisted with a National Missing          The diligent work,
 Children Day event sponsored by the National Center         outstanding efforts,
 for Missing and Exploited Children. The agents assisted    and many contributions
 with completing identification kits which included         of our entire OIG staff
 photographs and fingerprints for 100 second-grade         make the accomplishments
 students from Walker Elementary School in Livingston         highlighted in this
 Parish, Louisiana.                                           Semiannual Report
 • A supervisor in our Kansas City, Missouri office           to Congress possible.
 participated in the Oceans of Mercy 5K walk/run to
 raise money for an orphanage in South Africa. Between
                                                                 We would like
 April and June 2009, he also participated in a project          to thank them
 sponsored by Metro Lutheran Ministries in Kansas          for their dedicated spirit
 City to help inner-city homeowners with minor home           and many successes.
 repairs.




38                                                                   April 1 – September 30, 2009
                               Semiannual Report to Congress




         Reporting Requirements
                  and
               Appendices




April 1 – September 30, 2009                             39
Semiannual Report to Congress




         Reporting Requirements
         This report meets the requirements of the Inspector General Act of 1978, as amended, and
         includes information mandated by Congress.



               Section                              Requirement                              Page(s)

             Section 4(a)(2)    Review of legislation and regulations.                         N/A


             Section 5(a)(1)    Significant problems, abuses, and deficiencies.                9 - 38


             Section 5(a)(2)    Recommendations with respect to significant problems,          9 - 14
                                abuses, and deficiencies.                                     22 - 25

             Section 5(a)(3)    Recommendations described in previous Semiannual             Appendix
                                Reports on which corrective actions are incomplete.           F&G

             Section 5(a)(4)    Matters referred to prospective authorities and the           14 - 20
                                prosecutions and convictions that have resulted.              25-32

            Section 5(a)(5) &
                                Summary of instances where information was refused.            N/A
             Section 6(b)(2)


             Section 5(a)(6)    List of audits.                                             Appendix B


                                                                                               9 - 14
             Section 5(a)(7)    Summary of particularly significant reports.
                                                                                              22 - 25

                                Table showing the total number of audit reports and
             Section 5(a)(8)                                                                Appendix A
                                total dollar value of questioned costs.

                                Table showing the total number of audit reports and
             Section 5(a)(9)                                                                Appendix A
                                total dollar value of funds put to better use.

                                Audit recommendations more than 6 months old for
            Section 5(a)(10)                                                                Appendix A
                                which no management decision has been made.

                                Significant management decisions that were revised
            Section 5(a)(11)                                                                   N/A
                                during the reporting period.

                                Significant management decisions with which the
            Section 5(a)(12)                                                                Appendix D
                                Inspector General disagrees.




40                                                                                    April 1 – September 30, 2009
                                                                                     Semiannual Report to Congress




       Appendix A: Resolving Audit Recommendations
       The following chart summarizes SSA’s responses to our recommendations for the recovery or
       redirection of questioned and unsupported costs. Questioned costs are those costs that are challenged
       because of a violation of law, regulation, etc. Unsupported costs are those costs that are questioned
       because they are not justified by adequate documentation. This information is provided in accordance
       with P.L. 96-304 (the Supplemental Appropriations and Recession Act of 1980) and the Inspector
       General Act of 1978, as amended.

                      Reports with Questioned Costs for the Reporting Period
                                    April 1, 2009 – September 30, 2009
                                                                            Value                Value
                                                           Number
                                                                          Questioned          Unsupported
         A.	For which no management decision had
            been made by the commencement of the              13               $144,673,551      $1,873,871
            reporting period.
         B.	Which were issued during the reporting
            period.                                           22a         $2,935,824,587        $57,775,986


            	 Subtotal (A + B)                                35          $3,080,498,138        $59,649,857


         	 Less:


         C.	For which a management decision was
                                                               8          $1,461,231,258           $51,271
            made during the reporting period.


         	 i.	 Dollar value of disallowed costs.               7          $1,461,231,258           $29,003


         	 ii.	 Dollar value of costs not disallowed.          1                        $0         $22,268

         D.	For which no management decision had
            been made by the end of the reporting             28          $1,619,266,880        $59,598,586
            period.


       ­a. 	 See Reports with Questioned Costs in Appendix B of this report.




April 1 – September 30, 2009                                                                                   41
Semiannual Report to Congress




        The following chart summarizes SSA’s response to our recommendations that funds be put to
        better use through cost avoidances, budget savings, etc.


               Reports with Recommendations that Funds Be Put to Better Use
                   Reporting Period April 1, 2009 – September 30, 2009

                                                                              Number        Dollar Value
          A. For which no management decision had been made by
                                                                                   6         $442,747,533
             the commencement of the reporting period.

          B.	 Which were issued during the reporting period.                     18a       $4,097,820,134


          		    Subtotal (A + B)                                                  24       $4,540,567,667


             	 Less:

          C.	 For which a management decision was made during
              the reporting period.
            i. Dollar value of recommendations that were agreed to
                                                                                   7       $4,074,462,147
               by management.

             (a) Based on proposed management action.                              7       $4,074,462,147


             (b) Based on proposed legislative action.                             0                   $0


            ii.	 Dollar value of costs not agreed to by management.                0                   $0


          		    Subtotal (i + ii)                                                  7       $4,074,462,147

          D.	For which no management decision had been made by
                                                                                  17         $466,105,520
             the end of the reporting period.


           ­a. See Reports with Funds Put to Better Use in Appendix B of this report.




42                                                                                      April 1 – September 30, 2009
                                                                                Semiannual Report to Congress




       Appendix B: Reports Issued
                               Reports with Non-Monetary Findings
                               October 1, 2008 – September 30, 2009
        Audit Number                               Report                                 Issue Date
                         Management Advisory Report: Single Audit of the State of
         A-77-09-00001                                                                     10/2/2008
                         Minnesota for the Fiscal Year Ended June 30, 2007
                         Management Advisory Report: Single Audit of the State of
         A-77-09-00002                                                                     10/3/2008
                         Washington for the Fiscal Year Ended June 30, 2007
                         Congressional Response Report: Customer Service Issues at
         A-12-08-28080                                                                    10/27/2008
                         the Dover Hearing Office
                         Fiscal Year 2008 Inspector General Statement on the Social
         A-02-09-19074   Security Administration’s Major Management and Performance        11/5/2008
                         Challenges
                         Management Advisory Report: Single Audit of the
         A-77-09-00003   Commonwealth of Massachusetts for the Fiscal Year Ended           11/5/2008
                         June 30, 2007

         A-15-08-18087   Fiscal Year 2008 Financial Statement Audit Oversight              11/7/2008

                         Management Advisory Report: Single Audit of the State of
         A-77-09-00004                                                                    11/21/2008
                         Texas for the Fiscal Year Ended August 31, 2007
                         Quick Response Evaluation: Effectiveness of Educational
         A-03-07-17105                                                                    12/15/2008
                         Correspondence to Employers
                         Quick Response Evaluation: Federal Protective Service Basic
         A-15-08-28125                                                                    12/18/2008
                         Security Fees
                         Management Advisory Report: Single Audit of the
         A-77-09-00005   Commonwealth of Virginia for the Fiscal Year Ended June 30,      12/18/2008
                         2007
         A-01-08-18011   Disability Claims Overall Processing Times                       12/19/2008
                         The Social Security Administration’s Oversight of MDRC
         A-15-08-18010                                                                    12/22/2008
                         Contract No. SS00-06-60075
                         Costs Claimed by the Virginia Commonwealth University
         A-15-09-29064                                                                      1/5/2009
                         Contract Number SS00-04-60097 (Limited Distribution)
                         Earnings Records with Multiple Employer Identification
         A-08-08-18002                                                                      1/5/2009
                         Numbers
                         Follow-up: The Social Security Administration’s Procedures
         A-13-08-18077                                                                     1/20/2009
                         for Addressing Employee-related Allegations
                         Quick Response Evaluation: Sources of Erroneous Death
         A-06-09-29095                                                                      2/4/2009
                         Entries Input into the Death Master File
                         Quick Response Evaluation: Social Security Administration
         A-15-09-29076                                                                     2/18/2009
                         Employees Who Were Absent Without Leave
                         Administrative Costs Claimed by the Kentucky Disability
         A-08-08-18059                                                                     2/20/2009
                         Determination Services




April 1 – September 30, 2009                                                                              43
Semiannual Report to Congress




                         Reports with Non-Monetary Findings (Cont.)
                                October 1, 2008 – September 30, 2009
                        Assignment of Social Security Numbers to Individuals in
        A-08-08-18098   the Commonwealth of the Northern Mariana Islands and               2/25/2009
                        American Samoa
        A-08-08-18079   Management Advisory Report: R-1 Religious Workers’ Use of           3/9/2009
                        Social Security Numbers

        A-44-09-19098   The Social Security Administration’s Ability to Address Future     3/16/2009
                        Processing Requirements (Limited Distribution)

        A-77-09-00008   Management Advisory Report: Single Audit of the State of           3/17/2009
                        New York for the Fiscal Year Ended March 31, 2007
        A-15-09-19021   Administrative Costs Claimed by the Pennsylvania Bureau of         3/19/2009
                        Disability Determination
        A-12-08-18072   Physical Security at the Office of Disability Adjudication and     3/26/2009
                        Review’s Headquarters Building (Limited Distribution)
        A-77-09-00009   Management Advisory Report: Single Audit of the State of           3/26/2009
                        Illinois for the Fiscal Year Ended June 30, 2007
        A-77-09-00010   Management Advisory Report: Single Audit of the State of           3/26/2009
                        Maine for the Fiscal Year Ended June 30, 2007
        A-01-08-18023                                                                      3/27/2009
                        The Social Security Administration’s Listing of Impairments

        A-01-09-29137   Impact of State Employee Furloughs on the Social Security          3/27/2009
                        Administration’s Disability Programs

                        Accuracy of the Social Security Administration’s Required
                        Certification of Fiscal Year 2007 Procurement Data
       A-15-08-28107                                                                      4/15/2009
                        Submissions to Federal Procurement Data System - Next
                        Generation

                        Congressional Response Report: Opportunities and
       A-08-09-29152                                                                      4/30/2009
                        Challenges for the Social Security Administration


       A-05-09-29119    Processing of Railroad Worker Disability Claims                   5/12/2009


       A-01-09-19030    National Rollout of Quick Disability Determinations               5/13/2009




44                                                                                April 1 – September 30, 2009
                                                                                Semiannual Report to Congress




                          Reports with Non-Monetary Findings (Cont.)
                               October 1, 2008 – September 30, 2009
                         Florida’s Title IV-E Waiver May Impact Supplemental Security
       A-04-09-19091                                                                      5/26/2009
                         Income Benefits

                         Potential Social Security Number Misuse in Certain Unique        5/26/2009
       A-08-08-28060
                         Populations

                         Follow-up: The Social Security Administration’s
       A-14-08-18076     Implementation of Program Operations Manual System               5/27/2009
                         Security Requirements for Disability Determination Services

                         Access to Personally Identifiable Information Available in the
       A-07-09-19059                                                                      5/29/2009
                         LexisNexis Total Research System (Limited Distribution)

                         Social Security Administration’s Disaster Recovery Process
       A-14-09-29139                                                                      6/5/2009
                         (Limited Distribution)

                         The Social Security Administration’s Wage Reconciliation
       A-03-08-18069                                                                      6/16/2009
                         Process with the Internal Revenue Service

                         Accuracy of the Help America Vote Verification Program
       A-03-09-29115                                                                      6/22/2009
                         Responses

                         Follow-up: The Social Security Administration’s Electronic
       A-14-09-19044                                                                      6/22/2009
                         Mail Security Review

       A-07-09-19069     Electronic File Assembly                                         6/26/2009

                         Congressional Response Report: The Social Security
       A-13-09-29141                                                                      6/29/2009
                         Administration’s Oversight of Representative Payees

                         Congressional Response Report: The Social Security
       A-44-09-29120                                                                      6/29/2009
                         Administration’s Information Technology Strategic Planning

                         Administrative Expenses Incurred to Provide Economic
       A-06-09-29144                                                                      7/1/2009
                         Recovery Payments




April 1 – September 30, 2009                                                                              45
Semiannual Report to Congress




                         Reports with Non-Monetary Findings (Cont.)
                             October 1, 2008 – September 30, 2009

       A-03-08-18067    Consent Based Social Security Number Verification Program         7/10/2009


       A-15-09-29125    Improper Payments Report                                          7/23/2009

                        Funding for Health Information Technology under the
       A-01-09-29155                                                                      7/31/2009
                        American Recovery and Reinvestment Act of 2009

                        Office of Disability Adjudication and Review Management
       A-07-09-29162                                                                      8/3/2009
                        Information
                        Protecting Personally Identifiable Information on the Social
       A-12-09-29118                                                                      8/19/2009
                        Security Administration’s Intranet Sites

                        Effectiveness of Special Indicator Codes on the Social Security
       A-08-09-19099                                                                      8/26/2009
                        Administration’s Numident File

       A-04-09-19104    Controls Over Title XVI Immediate Payments                        9/2/2009

                        Congressional Response Report: Impact of the Social Security
       A-01-09-29084                                                                      9/4/2009
                        Administration’s Claims Process on Disability Beneficiaries

                        Organizational Representative Payee Serving as an Individual
       A-03-09-29094                                                                      9/23/2009
                        Representative Payee in Philadelphia, Pennsylvania

                        Follow-up: The Social Security Administration’s Computer
       A-14-09-19048                                                                      9/24/2009
                        Security Program Compliance
       A-12-08-18071    Aged Claims at the Hearing Level                                  9/25/2009

                        The Social Security Administration’s Compliance with Certain
       A-08-09-19108    Evidence Requirements that Restrict Noncitizens’ Eligibility      9/25/2009
                        for Title II Benefits

                        Administrative Costs Claimed by the Michigan Disability
       A-05-08-18017                                                                      9/30/2009
                        Determination Services

                        Indirect Costs Claimed by the New Mexico Disability
       A-06-09-19122                                                                      9/30/2009
                        Determination Services

                        Processing Capacity of the Social Security Administration’s
       A-14-09-19100                                                                      9/30/2009
                        Durham Support Center

       A-14-10-11001    Self-Help Personal Computer Pilot                                 9/30/2009


                       Implementation of the Social Security Administration’s Security    9/30/2009
       A-14-10-11002   Performance Metrics Program

46                                                                               April 1 – September 30, 2009
                                                                                Semiannual Report to Congress




                                    Reports with Questioned Costs
                               October 1, 2008 – September 30, 2009
      Audit Number Issue Date                             Report                        Dollar Amount

                                       Individual Volume Representative Payee in
       A-15-08-28093     11/4/2008                                                               $3,965
                                       Hartford, Connecticut


                                       Payments to Spouses Eligible for Higher
       A-09-08-18007    12/16/2008                                                         $123,735,700
                                       Retirement Benefits

                                       Management Advisory Report: Single Audit
       A-77-09-00006       2/4/2009    of the State of Montana for the 2-Year Period            $90,374
                                       Ended June 30, 2007

                                       Quick Response Evaluation: Effectiveness of
       A-02-09-29007     2/10/2009                                                           $5,053,700
                                       Title XVI Installment Agreements


                                       Management Advisory Report: Single Audit
       A-77-09-00007     3/19/2009     of the Commonwealth of Pennsylvania for the           $1,568,644
                                       Fiscal Year Ended June 30, 2007


                                       Administrative Costs Claimed by the Utah
       A-07-09-19005     3/30/2009                                                              $10,528
                                       Disability Determination Services

                                       Follow-up on Disabled Title II Beneficiaries
       A-01-08-28075     4/15/2009     with Earnings Reported on the Master               $1,335,815,580
                                       Earnings File

                                       Benefits Paid to Title II Beneficiaries with a
      A-01-09-29070     6/26/2009                                                            $2,548,223
                                       Child-in-Care


                                       Payments to Individuals Whose Numident
      A-06-08-18095     6/26/2009                                                           $40,258,680
                                       Record Contains a Death Entry


      A-06-08-18097     7/2/2009       Benefit Payments Mailed to Post Office Boxes            $161,398




April 1 – September 30, 2009                                                                               47
Semiannual Report to Congress




                            Reports with Questioned Costs (Cont.)
                            October 1, 2008 – September 30, 2009

                                  Supplemental Security Income Eligibility of
     A-02-09-29001    7/10/2009                                                            $11,386
                                  Refugees


                                  Supplemental Security Income Recipients
     A-02-08-28038    7/15/2009                                                        $551,485,720
                                  with Unreported Vehicles

                                  Salina Emergency-Aid Food Bank, A Fee-for-
     A-07-09-19065    7/29/2009   Service Representative Payee for the Social                $9,016
                                  Security Administration

                                  The Social Security Administration’s
     A-09-08-18047    8/3/2009    Unprocessed Annual Earnings Enforcement              $851,856,248
                                  Selections

                                  Management Advisory Report: Single
                                  Audit of the Commonwealth of Puerto Rico,
     A-77-09-00011    8/5/2009                                                            $559,157
                                  Department of the Family, for the Fiscal Year
                                  Ended June 30, 2006

                                  Myers Investigative and Security Services
     A-08-09-19107    8/17/2009                                                            $30,000
                                  Contract (Limited Distribution)

                                  Follow-up: the Social Security
     A-01-09-19029    8/20/2009   Administration’s Prisoner Incentive Payment           $30,281,018
                                  Program

                                  Characteristics of Representative Payees That
     A-09-08-38055    8/20/2009                                                          $1,228,114
                                  May Increase the Risk of Benefit Misuse

                                  Management Advisory Report: Single
                                  Audit of the Commonwealth of Puerto Rico,
     A-77-09-00012    8/20/2009                                                           $196,389
                                  Department of the Family, for the Fiscal Year
                                  Ended June 30, 2007

                                  Follow-up: Controls over Recording
     A-01-09-19126    8/25/2009   Supplemental Security Income                           $9,398,893
                                  Overpayments

                                  Administrative Costs Claimed by the
     A-01-09-19035    8/26/2009   Massachusetts Disability Determination                  $474,065
                                  Services




48                                                                            April 1 – September 30, 2009
                                                                                    Semiannual Report to Congress




                                 Reports with Questioned Costs (Cont.)
                                  October 1, 2008 – September 30, 2009

                                           Costs Claimed by Association of University
                                           Centers on Disabilities’ Termination and
     A-15-09-29121        9/2/2009                                                                     $57,462
                                           Final Closeout of Contract Number SS00-
                                           06-60074 (Limited Distribution)

                                           Follow-up: The Social Security
     A-06-08-18078        9/3/2009         Administration’s Controls over the Title XVI            $56,191,340
                                           Overpayment Waiver Process

                                           Individuals Receiving Multiple Old-Age,
     A-01-08-28048        9/17/2009                                                                 $1,633,018
                                           Survivors and Disability Insurance Benefits

                                           Controls Over “Special Payment Amount”
     A-09-09-29011        9/23/2009                                                                $65,266,120
                                           Overpayments for Title II Beneficiaries

                                           Management Advisory Report: Defense
                                           Contract Audit Agency Report on
                                           Mathematica Policy Research, Incorporated’s
     A-15-09-29176        9/23/2009                                                                   $356,532
                                           Termination Settlement Proposal for
                                           Contract Number SS00-06-60084 (Limited
                                           Distribution

                                           University of Michigan Retirement Research
     A-02-09-19081        9/30/2009                                                                   $260,054
                                           Center

                                           Spouses’ to Widow(er)s’ Benefits When
     A-13-08-28103        9/30/2009                                                                $45,522,160
                                           Government Pensions are Involved


                                                  TOTAL1                                      $3,124,063,484


     1
      Single Audit reports shown in this table represent audits of states conducted in accordance with generally
     accepted audit standards, by independent public accounting firms and/or State auditors under the Single Audit
     Act of 1984 and the Single Audit Act of 1996. Upon receipt of the single audit report, OIG reviews the report
     and identifies findings and recommendations directed at SSA employees. The monetary findings claimed for
     these audits is insignificant when compared to our overall audit findings.




April 1 – September 30, 2009                                                                                         49
Semiannual Report to Congress




                            Reports with Funds Put to Better Use
                            October 1, 2008 – September 30, 2009

     Audit Number     Issue Date                       Report                            Dollar Amount
                                   Contract with Lockheed Martin Government
     A-04-08-18066    11/20/2008                                                               $1,615,464
                                   Services, Inc., for Digital Imaging Services
                                   Payments to Spouses Eligible for Higher
     A-09-08-18007    12/16/2008                                                             $208,996,900
                                   Retirement Benefits

                                   Indirect Costs Claimed by the Texas Disability
     A-06-08-18092     1/26/2009                                                               $9,790,704
                                   Determination Services

                                   Contract for the Benefit Offset National
     A-05-08-18041     3/12/2009   Demonstration Project with Abt Associates,                  $5,300,000
                                   Incorporated

                                   Fugitive Felons Serving as Representative
     A-01-08-18021     3/31/2009                                                              $95,199,833
                                   Payees

                                   Follow-up on Disabled Title II Beneficiaries
     A-01-08-28075     4/15/2009   with Earnings Reported on the Master                      $381,563,100
                                   Earnings File
                                   Economic Recovery Payments for Social
     A-09-09-29143     5/15/2009   Security and Supplemental Security Income                  $38,430,000
                                   Beneficiaries
     A-13-08-28122     5/26/2009   Establishment of Dedicated Accounts                         $9,711,200
                                   Benefits Paid to Title II Beneficiaries with a
     A-01-09-29070     6/26/2009                                                               $2,271,516
                                   Child-in-Care

                                   Payments to Individuals Whose Numident
     A-06-08-18095     6/26/2009                                                               $6,936,540
                                   Record Contains a Death Entry

     A-06-08-18097      7/2/2009   Benefit Payments Mailed to Post Office Boxes                  $30,958

                                   Supplemental Security Income
     A-07-09-29146     7/14/2009                                                           $3,255,531,018
                                   Redeterminations

     A-15-07-17088     7/16/2009   Disabled Beneficiaries Hiding Wages                         $8,377,620

                                   Salina Emergency-Aid Food Bank, A Fee-for-
     A-07-09-19065     7/29/2009   Service Representative Payee for the Social                     $1,143
                                   Security Administration




50                                                                                  April 1 – September 30, 2009
                                                                                Semiannual Report to Congress




                          Reports with Funds Put to Better Use (Cont.)
                               October 1, 2008 – September 30, 2009

                                     Individual Representative Payees Serving
     A-13-08-28089     7/31/2009                                                                 $4,850
                                     Multiple Beneficiaries


                                     Probation or Parole Violators Serving as
     A-01-09-29112     8/19/2009                                                            $30,952,311
                                     Representative Payees

                                     Follow-up: Concurrent Title II and XVI
     A-09-09-19019     8/20/2009     Beneficiaries Receiving Representative Payee           $68,343,038
                                     and Direct Payments

                                     Field Office Procedures for Charging and
     A-04-09-19041     8/28/2009                                                               $205,148
                                     Collecting Fees

                                     Follow-up: The Social Security
     A-04-09-19039     9/2/2009      Administration’s Controls over Suspending              $52,282,240
                                     Collection Efforts on Title XVI Overpayments

                                     Individuals Receiving Multiple Old-Age,
     A-01-08-28048     9/17/2009                                                               $573,732
                                     Survivors and Disability Insurance Benefits

                                     Supplemental Security Income Overpayments
     A-06-09-29103     9/24/2009     to Concurrent Beneficiaries Resulting from              $5,078,640
                                     Incorrect Benefit Calculations

                                     Improper Payments Resulting from
     A-09-08-18006     9/25/2009                                                            $89,742,700
                                     Unresolved Delayed Claimants


                                     Spouses’ to Widow(er)s’ Benefits When
     A-13-08-28103     9/30/2009                                                           $147,784,380
                                     Government Pensions are Involved


                                                                                        $4,418,723,035
                                      TOTAL




April 1 – September 30, 2009                                                                              51
Semiannual Report to Congress




     Appendix C: Reporting Requirements Under the
     Omnibus Consolidated Appropriations Act of FY 1997
     To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) we are
     providing requisite data for FY 2009 from the Offices of Investigations and Audit in this report.
     Office of Investigations
     We are reporting over $26 million in SSA funds as a result of our investigative activities in this reporting
     period (4/1/09 – 9/30/09). These funds are broken down in the table below.


                                                Investigative Activities

                        1st Quarter        2nd Quarter        3rd Quarter        4th Quarter
                                                                                                         Total
                      (10/1/08-12/31/08)   (1/1/09-3/31/09)   (4/1/09-6/30/09)   (7/1/09-9/30/09)


         Court
        Ordered         $5,814,165          $6,057,189         $5,993,281         $6,262,278          $24,126,913
       Restitution

       Recoveries       $5,683,723          $5,159,791         $6,313,428         $6,219,624          $23,376,566


          Fines          $468,642           $1,035,035          $721,139           $639,726            $2,864,542


      Settlements/
                         $433,560            $289,179           $312,102           $353,849            $1,388,690
       Judgments


         TOTAL         $12,400,090         $12,541,194        $13,339,950        $13,475,477          $51,756,711




52                                                                                             April 1 – September 30, 2009
                                                                                       Semiannual Report to Congress




       Office of Audit
       SSA management has informed us that it has completed implementing recommendations from
       6 audit reports during this time period valued at over $264 million.
       Quick Response Evaluation: Economic Recovery Payments for Social
       Security and Supplemental Security Income Beneficiaries (A-09-09-29143,
       5/15/2009)

       No Recommendation - SSA took action during the review on actual findings. The implemented value of
       this recommendation is $38,430,000.

       Unprocessed Manual Recalculations for Title II Payments (A-03-07-17090,
       8/14/2008)

       We recommended that SSA review the remaining 944 cases (from the 1,077 we identified) to ensure
       benefits have been adjusted appropriately. The implemented value of this recommendation is $1,237,060.

       Administrative Costs Claimed by the Colorado Disability Determination
       Services (CO-DDS) (A-07-07-17136, 4/14/2008)

       We recommended that SSA instruct the CO-DDS to submit a final State Agency Report of Obligations
       for SSA Disability Programs for FYs 2002 through 2004 and upon receipt rescind the excess funding
       authorization totaling $77,659.

       Administrative Costs Claimed by the Washington Disability
       Determination Services (A-03-07-17090, 8/14/2008)

       We recommended that SSA instruct the Department of Social and Health Services (DSHS) to revise its
       cost-allocation plan to charge self-insurance premiums in accordance with the relative benefits received (for
       example, allocating based on historical losses). The implemented value of this recommendation is $1,516,055.

       An Individual Representative Payee for the Social Security
       Administration in the San Francisco Region (A-09-07-17063, 7/3/2007)

       We recommended that SSA return conserved funds to SSA for any beneficiaries who are no longer in its
       care. The implemented value of this recommendation is $2,387.

       The Social Security Administration’s Income and Resource Verification
       Process for Individuals Applying for Help with Medicare Prescription
       Drug Plan Costs (A-06-06-16135, 2/19/2008)

       We recommended that SSA ensure its redetermination process identifies and terminates improperly awarded
       subsidies currently in effect. The implemented value of this recommendation is $223,594,840.




April 1 – September 30, 2009                                                                                           53
Semiannual Report to Congress




       Appendix D: Significant Management Decisions With
       Which the Inspector General Disagrees
       There are no significant management decisions with which the Inspector General disagrees.




54                                                                             April 1 – September 30, 2009
                                                                                          Semiannual Report to Congress




       Appendix E: Collections from Investigations
       and Audits
       The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report additional
       information concerning actual cumulative collections and offsets achieved as a result of OIG activities
       each semiannual period.


       Office of Investigations

                        Total Restitution Reported by DOJ as Collected for SSA

                                       Total Number
                                        of Individuals              Court Ordered             Total Restitution
                   FY
                                       Assigned Court                Restitution              Collected by DOJ
                                     Ordered Restitution
                  2007                          655                    $26,435,626                  $898,7641

                  2008                          765                    $22,975,145                 See Footnote 2

                  2009                          603                    $24,126,913                 See Footnote 2

                TOTAL                          2,023                   $73,537,684                   $898,764
       1
        Reflects collection for October 1, 2006 – June 30, 2007.
       2
        DOJ migrated collection data to a new computer system and is working to generate reports
       that will provide us with this information.



                        Recovery Actions Based on OI Investigations

                              Total Number of Recovery
              FY                                                          Amount for Recovery
                                  Actions Initiated

             2007                            2,514                                         $44,081,776

             2008                            1,862                                         $40,040,214

             2009                             954                                          $23,376,566

           TOTAL                             5,330                                       $107,498,556




April 1 – September 30, 2009                                                                                        55
Semiannual Report to Congress




     Office of Audit
     The following chart summarizes SSA’s responses to our recommendations for the recovery or redirection of
     questioned and unsupported costs. This information is prepared in coordination with SSA’s management
     officials and was current as of September 30, 2009.


                                    SSA’s Responses to OIG’s Recommendations
                            Recovery or Redirection of Questioned and Unsupported Costs1
                 Reports with      Questioned/
                                                      Management       Amount Collected Amount Written-
       FY        Questioned        Unsupported                                                                        Balance2
                                                      Concurrence      or to be Recovered Off/Adjustments
                    Costs             Costs

       2007            36         $1,261,104,045       $890,233,952         $541,117,409         $370,848,695       $349,137,941


       2008            28         $2,409,411,231       $485,835,413         $219,342,650       $1,941,311,792       $248,756,789


       2009            28         $3,124,063,484     $1,466,251,939           $5,115,442           $1,605,489     $3,117,342,517


     TOTAL             92        $6,794,578,760 $2,842,321,304             $765,575,501      $2,313,765,976 $3,715,237,247


       1
           The amounts in the table regarding collections, recoveries, and write-offs/adjustments were not verified by the OIG.
       2
           Balance = Questioned/Unsupported Costs - Amount Collected or to be Recovered - Amount Written-Off/Adjustments




56                                                                                                  April 1 – September 30, 2009
                                                                               Semiannual Report to Congress




         Appendix F: Significant Monetary Recommendations
         From Prior FYs for Which Corrective Actions Have
         Not Been Completed
         The Social Security Administration’s Use of Administrative
         Sanctions in the Old Age, Survivors and Disability Insurance
         Program (A-07-07-17052, 9/19/2008)
         Results of Review: Between October 1, 2004 and June 30, 2007, there were 7,261 Title II
         cases that SSA referred to the OIG with allegations of potential fraud that were not accepted
         for prosecution. Given that there were allegations of potential fraud, we would have expected
         that SSA would have considered imposing administrative sanctions for a significant number of
         these cases. However, we were only able to confirm that 61 of the 7,261 cases were considered
         for administrative sanctions. While we do not know the percentage of the 7,200 cases where
         individuals should have had administrative sanctions imposed, we do know that individuals
         had administrative sanctions imposed for 45 percent of the cases SSA documented as being
         considered for sanctions from October 2000 through March 2008. Therefore, if SSA had
         pursued administrative sanctions on 45 percent of the 7,200 cases, individuals could have had
         sanctions imposed totaling approximately $17.6 million.
         Further, between December 1, 2006 and September 12, 2007, there were 94,299 Title II
         overpayments posted to beneficiaries’ Social Security records. We reviewed a select number of
         these overpayments to determine whether they resulted from potentially sanctionable actions
         and whether they should have been referred to the OIG. Based on the results of our review of
         these overpayments, we estimate that at least 38,175 of the 94,299 overpayments could have
         been referred to the OIG since the overpayments occurred because of potentially sanctionable
         actions. If SSA had pursued administrative sanctions on 45 percent of the 38,175 overpayments,
         individuals could have had sanctions imposed totaling approximately $105.8 million.
         Recommendation: Evaluate the current administrative sanctions process and implement
         necessary changes to ensure that all potential administrative sanctions are identified and
         proactively considered. In doing so, consider implementing a risk-based approach that focuses
         on sanctionable actions that result in significant overpayments.
         Valued at: $123,458,884 in funds put to better use.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA identified Headquarters and regional office components that will be
         involved in an intercomponent workgroup to evaluate the current administrative sanctions
         process.




April 1 – September 30, 2009                                                                              57
Semiannual Report to Congress




     Ticket to Work and Self Sufficiency Program Cost Effectiveness (A-02-07-
     17048, 8/11/2008)
     Results of Review: Our audit found that approximately 3,800 of the 10 million beneficiaries, or less than
     one-tenth of 1 percent, who had received a Ticket by the beginning of FY 2005 were Ticket Program
     participants in that year. These participants appeared to have had limited success in attaining economic
     self-sufficiency. Approximately one-third of the participants did not have earnings from work activity
     from October 2004 to December 2006. Of the remaining two-thirds who had earnings for at least some
     of these months, half were not employed as of December 2006. A comparative analysis of Ticket Program
     participants to disabled beneficiaries who received vocational services outside the Ticket Program (non-
     program participants) showed a similar work activity pattern. Specifically, the percentage of beneficiaries
     with earnings on their records after receiving vocational services steadily decreased over time for both groups.
     Additionally, the Ticket Program did not generate savings for SSA.
     Recommendation: SSA should work with Congress to reform or end the Ticket Program if SSA determines
     the program is not having the desired impact and/or it is not cost-effective.
     Valued at: $138,000,000 in funds put to better use.
     Agency Response: SSA agreed with the recommendation.
     Corrective Action: The Agency has taken steps to assess the direction and overall effectiveness of the Ticket
     program consistent with OIG’s recommendations contained in their audit report. SSA issued regulations
     on May 20, 2008, which were effective in July 2008, that address the core problems of the Ticket to Work
     Program, and believes these changes will yield the results that Congress intended over the next 5 years.
     Controls over Miscellaneous Payments Made Through the Single Payment
     System (A-09-07-17119, 10/25/2007)
     Results of Review: Our audit disclosed that SSA’s controls to prevent or detect improper or duplicate
     miscellaneous payments were generally effective. However, SSA needed to improve its controls over the
     retention of supporting documentation for miscellaneous Single Payment System (SPS) payments and the
     recording of Social Security numbers for SPS payments issued to non-beneficiaries. Based on our review
     of a random sample of 275 death underpayments from the population of 327,580 non beneficiaries, we
     found that SSA
     - improperly paid an estimated $7.3 million to 11,912 non-beneficiaries;
      - did not retain adequate supporting documentation for an estimated $98 million in payments made to
     50,030 non-beneficiaries;
      - did not obtain or record the Social Security numbers (SSN) for 176,029 (53 percent) of the 332,680
     death underpayments issued to non-beneficiaries; and




58                                                                                      April 1 – September 30, 2009
                                                                                Semiannual Report to Congress




          - paid improper duplicate payments of $27,480 to 3 individuals.
         Recommendation: SSA should establish an appropriate control to ensure the SSA-1724 or other
         written application for a death underpayment is retained.
         Valued at: $98,280,016 in questioned costs.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA responded that it will explore appropriate controls to ensure retention of
         documentation for death underpayments. SSA will also establish appropriate controls as resources
         permit.
         Improper Payments Resulting from the Annual Earnings Test (AET)
         (A-09-07-17066, 8/31/2007)
         Results of Review: Our audit disclosed that SSA did not adjust the benefit payments for all
         beneficiaries who were subject to AET. Based on a random sample of 250 beneficiaries for Calendar
         Years 2002 through 2004, we found SSA overpaid $393,117 to 112 beneficiaries and underpaid
         $44,264 to 16 beneficiaries. As a result, we estimate SSA overpaid about $313 million to 89,300
         beneficiaries and underpaid about $35 million to 12,800 beneficiaries. These payment errors primarily
         occurred because SSA did not process all records identified by its Earnings Enforcement Operation.
         Recommendation: SSA should review and process, as appropriate, all Earnings Enforcement
         Operation selections pending in the Office of Quality Performance since 1996.
         Valued at: $348,680,140 in questioned costs.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA responded that accounts for tax year (TY) 2004 are complete. SSA will
         continue to work on accounts for TY 2005 and forward. A sample of enforcement selections for TYs
         prior to 2004 will require manual processing. Due to the lack of resources, the Agency is unable to
         address these enforcement selections.




April 1 – September 30, 2009                                                                                     59
Semiannual Report to Congress




       Significant Monetary Recommendations From Prior
       Semiannual Report to Congress for Which Recent
       Corrective Actions Have Been Made

       Supplemental Security Income Recipients Eligible as Disabled
       Adult Children (DAC) Under the Old-Age, Survivors and Disability
       Insurance Program (A-13-07-17073, 4/30/2007)
       Recommendation: SSA should determine whether the 5,908 SSI recipients are eligible for
       OASDI benefits as Disabled Adult Children, and calculate the OASDI underpayments due the
       recipients as appropriate.
       Valued at: $22,937,603 in funds put to better use.
       Corrective Action: SSA responded that its Office of Operations has identified the 5,908 work
       claims as potential DAC cases.




60                                                                           April 1 – September 30, 2009
                                                                                 Semiannual Report to Congress




         Appendix G: Significant Non-Monetary
         Recommendations From Prior FYs for Which
         Corrective Actions Have Not Been Completed
         Social Security Number Misuse for Work and the Impact on the
         Social Security Administration’s Master Earning File (A-03-07-
         27152, 9/29/2008)
         Results of Review: Our review found that for Tax Year 2004, SSA’s Earnings Suspense File
         (ESF) contained approximately 111,000 wage items representing about $1.1 billion in wages
         that were removed from the Master Earnings File because about 49,000 numberholders (NH)
         disclaimed the wage items. Although SSA had procedures to assist NHs whose identities
         were being misused, such as placing newly established fraud indicators on their Numident
         records and issuing new (different) SSNs as appropriate, we found the correspondence sent
         to these individuals neither advised them about the effects of SSN misuse nor encouraged
         them to report suspected SSN misuse to the Federal Trade Commission and law enforcement.
         While SSA had several processes to detect some instances of SSN misuse in its records, such
         as isolating reporting anomalies related to children and deceased individuals during the Annual
         Wage Reporting process, we believe SSA needs to strengthen its controls to help prevent misuse
         of an SSN from continuing once identified. We found the Agency’s employer correspondence
         processes and employer liaison services did not inform employers about potential SSN misuse
         cases, although employers play an essential role in detecting and preventing SSN misuse.
         Further, the Agency had not established an automated process that would post subsequent
         wage items associated with SSN misuse to the ESF. Instead, the Agency generally relied on the
         public to inform it about repeated SSN misuse, and evidence showed this did not always occur.
         Recommendation: SSA should consider the development of a cost effective method to
         automatically post subsequent wage items that have the same characteristics of previously
         disclaimed wage items to the Earnings Suspense File.
         Agency Response: SSA agreed with the recommendation.
         Corrective Action: SSA responded that it is still investigating the possibility of implementing
         this recommendation. SSA recently met with its Office of Policy and is awaiting a decision
         as to whether or not it can write a policy for this. If SSA receives a favorable decision to the
         recommendation, the project will have to find its level within the list of work that needs to be
         done and the resources available.




April 1 – September 30, 2009                                                                                61
Semiannual Report to Congress




     Controls Over Employee Verification Programs (A-03-06-15036,
     9/4/2007)
     Results of Review: We assessed the controls over SSA’s employee verification programs. We found
     that SSA’s Social Security Number Verification Service (SSNVS) had adequate access and monitoring
     controls. However, we found access controls over DHS’ E-Verify could be improved. In addition, we
     determined that feedback responses provided to employers were inconsistent among the verification
     programs. Finally, we found that both EVS programs and DHS’ E-Verify lacked effective controls
     related to monitoring employers’ use of the programs. Because of the vulnerabilities and inconsistencies
     we found among these programs, SSA’s data could be susceptible to unauthorized access as well as
     inadvertent disclosure of personally identifiable information to unauthorized users.
     Recommendation: SSA should ensure feedback responses provided to employers for the four verification
     programs are consistent as it relates to (a) name and SSN matches and (b) death indicator responses.
     Agency Response: SSA agreed with the recommendation.
     Corrective Action: SSA responded that its current disclosure policy allows the Agency to share the
     same data with employers via any SSN verification process. The routine use established for the applicable
     Privacy Act system of records, the SSN Master File (that is, Numident records), allows information
     from that system to be disclosed to employers consistent with their wage reporting responsibilities.
     Feedback response differences between the E-Verify and the various SSN verification processes were
     established for different purposes; therefore, it may be appropriate to maintain different matching
     protocols. E-Verify was designed to verify work eligibility status (determined by citizenship status) and
     is driven by Department of Homeland Security’s needs. The other programs verify only the SSN, name
     and date of birth (and check for death information) for wage reporting; citizenship status is not checked.
     SSA noted, however, that a future release of the SSNVS will return successful and unsuccessful matches
     to the user. This brings the functionality of E-Verify and SSNVS in line with each other.
     Lastly, the implementation of this recommendation could be affected by the outcomes for several pending
     developments concerning the E-Verify program, as several States are enacting legislation requiring that
     employers use E-Verify. Although comprehensive immigration reform legislation did not pass, there
     are other pending legislative proposals mandating the use of E-Verify. If the legislation is passed, or
     E-Verify is otherwise implemented, the need for other SSN verification programs for employers may
     diminish, as all employers will be required to use E-Verify for new hires.




     Significant Non-Monetary Recommendations From Prior
     Semiannual Report to Congress for Which Recent Corrective
     Action Has Been Made
     There are no significant management decisions from the prior semiannual report for which recent
     corrective actions were made.



62                                                                                   April 1 – September 30, 2009
                                                                       Semiannual Report to Congress




       Glossary of Acronyms
          AET                  Annual Earnings Test
          ALJ                  Administrative Law Judge
          BIC-D                National Deceased Payee Project
          CDI                  Cooperative Disability Investigations
          CDR                  Continuing Disability Reviews
          CFC                  Combined Federal Campaign
          CMP                  Civil Monetary Penalty
          CY                   Calendar Year
          DACUS                Death Alert, Control & Update System
          DDS                  Disability Determination Services
          DI                   Disability Income
          DOJ                  Department of Justice
          EEO                  Earnings Enforcement Operation
          ePulling             Electronic File Assembly
          ERP                  Economic Recovery Payment
          FY                   Fiscal Year
          HIT                  Health Information Technology
          IO                   Immediate Office
          IT                   Information Technology
          LDP	                 Leadership Development Program
          MEF                  Master Earnings File
          MOU                  Memorandum of Understanding
          NCC                  National Computer Center
          OA                   Office of Audit
          OASDI                Old Age, Survivors, and Disability Insurance



April 1 – September 30, 2009                                                                     63
Semiannual Report to Congress




       Glossary of Acronyms (Cont.)
          OCIG                  Office of the Counsel to the Inspector General
          ODAR                  Office of Disability Adjudication and Review
          OER                   Office of External Relations
          OI                    Office of Investigations
          OIG                   Office of the Inspector General
          OQAPR                 Office of Quality Assurance and Professional Responsibility
          OQP                   Office of Quality Performance
          OTRM                  Office of Technology and Resource Management
          PII                   Personally Identifiable Information
          Recovery Act          American Recovery and Reinvestment Act of 2009
          RRB                   Railroad Retirement Board
          SGA                   Substantial Gainful Activity
          SSA                   Social Security Administration
          SSI                   Supplemental Security Income
          SSN                   Social Security Number
          the Act               Social Security Act
          Title II              Federal Old-Age, Survivors, and Disability Insurance Benefits
          Title XVI             Supplemental Security Income
          TY                    Tax Year
          U.S.	                 United States




64                                                                        April 1 – September 30, 2009
                                                          Semiannual Report to Congress




                                How   to   Report Fraud

                  The SSA OIG Fraud Hotline               offers
                a means for you to provide information
                 on suspected fraud, waste, and abuse.
                If   you know of current or potentially
               illegal or improper activities involving
                         SSA     programs or personnel,
                     we encourage you to contact the
                               SSA OIG Fraud Hotline.

           Call ..............	1-800-269-0271

           Write ............	Social Security Administration 		
           				Office of the Inspector General
           				Attention: SSA Fraud Hotline
           				P.O. Box 17768
           				 Baltimore, MD 21235

           Fax	 .............. 410-597-0118

           Online ..........        www.socialsecurity.gov/oig


            To    obtain additional copies of this report,
                                         Web site at
                          please visit our
                          www.socialsecurity.gov/oig


                                SSA Pub. No. 85-007




April 1 – September 30, 2009                                                        67
Semiannual Report to Congress




             Preventing Fraud, Waste, and Abuse
                 www.socialsecurity.gov/oig




                            Social Security Administration
                            Office of the Inspector General
                                 SSA Pub. No. 85-007



68                                                            April 1 – September 30, 2009
